<html>
<title> - HEARING ON THE IMPACT AND STATUS OF THE NORTHERN SPOTTED OWL ON NATIONAL FORESTS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
    HEARING ON THE IMPACT AND STATUS OF THE NORTHERN SPOTTED OWL ON 
                            NATIONAL FORESTS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                     MARCH 19, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-79

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 47-909 cc                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ENI F.H. FALEOMAVAEGA, Am. Samoa
RICK HILL, Montana                   ---------- ----------
BOB SCHAFFER, Colorado               ---------- ----------
                      Bill Simmons, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 19, 1998......................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
        Prepared statement of....................................     2
    Herger, Hon. Wally, a Representative in Congress from the 
      State of California........................................    03
        Prepared statement of....................................     4

Statements of witnesses:
    Boyce, Dr. Mark S., College of Natural Resources, University 
      of Wisconsin...............................................     7
        Prepared statement of....................................    45
    Cosgrove, Sean, Legislative Coordinator, ForestWater 
      Alliance, Washington, DC...................................    11
        Prepared statement of....................................    56
    Irwin, Dr. Larry L., National Council for Air and Stream 
      Improvement, Stevensville, Montana.........................    10
        Prepared statement of....................................    50
    Jackson, Gerry, Assistant Director, Ecological Services, Fish 
      and Wildlife Service, U.S. Department of the Interior, 
      Washington, DC; accompanied by David Wesley, Assistant 
      Regional Director, Ecological Services, Fish and Wildlife 
      Service, U.S. Department of the Interior, Portland, Oregon; 
      Bob Williams, Regional Forester, Pacific Northwest Region, 
      Forest Service, U.S. Department of Agriculture, Portland, 
      Oregon; and Martin Raphael, Ph.D., Chief Research 
      Biologist, Pacific Northwest Region, Forest Services, U.S. 
      Department of Agriculture, Olympia, Washington.............    26
        Prepared statement of Gerry Jackson......................    64
    Lyons, James, Under Secretary of Agriculture, U.S. Department 
      of Agriculture.............................................    19
        Prepared statement of....................................    52
    Taylor, Dr. Robert J., Endangered Species Group, Orangevale, 
      California.................................................     8
        Prepared statement of....................................    48

Additional material supplied:
    California Farm Bureau Federation, prepared statement of.....    44



OVERSIGHT HEARING ON THE IMPACT AND STATUS OF THE NORTHERN SPOTTED OWL 
                          ON NATIONAL FORESTS

                              ----------                              


                        THURSDAY, MARCH 19, 1998

        House of Representatives, Subcommittee on Forests 
            and Forest Health, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 1324, Longworth House Office Building, Hon. Helen 
Chenoweth (chairman of the Subcommittee) presiding.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. [presiding] The Subcommittee on Forests and 
Forest Health will come to order. The Subcommittee is meeting 
today to hear testimony on the impact and status of the 
northern spotted owl on the national forests.
    This afternoon, the Subcommittee on Forests and Forest 
Health meets to evaluate the impact and status of the northern 
spotted owl on national forests in the Pacific Northwest. It 
has been 8 years since the Fish and Wildlife Service listed the 
owl as a threatened species in June 1990. In its listing 
decision the Service found that past trends, and I quote, 
``past trends strongly suggest that much of the remaining 
unprotected spotted owl habitat could disappear within 20 to 30 
years, and on some forests the unprotected habitat could 
disappear within 10 years.''--end quote.
    Time has proven that prediction wrong. Since 1990, the area 
of known habitat has increased each year. Population counts 
have increased significantly over time, as well. And thanks in 
part to better inventories, we have also learned that the owl 
uses a greater variety of habitat than was initially assumed.
    In 1994, when the President's Forest Plan was adopted, the 
landscape really changed. In one fell swoop, millions of acres 
of spotted owl habitat were set aside and stringent standards 
and guidelines were adopted, drastically altering the 
management of 19 national forests in 8 BLM districts.
    As a result, at least 88 percent of the 24 million acre 
land base is now off-limits to timber management activities. 
This created a vastly different picture from the one described 
in 1990 when the Service decided that the owl's habitat was 
threatened because 63 percent of the national forest land 
within its range was subject to timber harvest.
    Now, 4 years after adoption of the President's Forest Plan 
and 8 years after the spotted owl was listed, it is time to re-
evaluate the status of the owl, the condition of its habitat, 
the results of the agency's management under the plan, 
monitoring results, and plans for future research.
    We must ask how its management affected the owl and what 
effect the owl has had on forest management. How much have we 
spent on management and monitoring activities, and what were 
the results? And most importantly, when and how will we know 
whether the decisions we made in the first half of this decade 
have worked so that the owl can ultimately be removed from the 
threatened list?
    The growing body of scientific data on the population of 
the northern spotted owl, the area and type of habitat it 
requires, and changing management direction for both Federal 
lands and other lands have rendered obsolete many of the 
original assumptions about the owl and its habitat.
    Now, scientists and land managers have raised new concerns 
that the invasion of the barred owl and the very real threat of 
catastrophic fire in reserved lands pose an even greater threat 
to the owl. These concerns need to be addressed. It is critical 
that we ensure, through this Committee's oversight 
responsibility, that national forest management decisions are 
made and taxpayer dollars are spent wisely. It is my intent 
that this hearing will shed light on some of our questions and 
help identify what changes may be needed to significantly 
improve management of the owl and its habitat in the future.
    [The prepared statement of Mrs. Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    This afternoon the Subcommittee on Forests and Forest 
Health meets to evaluate the impact and status of the northern 
spotted owl on national forests in the Pacific Northwest. It 
has been eight years since the Fish and Wildlife Service listed 
the owl as a threatened species in June, 1990. In its listing 
decision, the Service found that ``past trends strongly suggest 
that much of the remaining unprotected spotted owl habitat 
could disappear within 20 to 30 years, and on some forests, the 
unprotected habitat could disappear within 10 years.''
    Time has proven that prediction wrong. Since 1990, the area 
of known habitat has increased each year. Population counts 
have increased significantly over time as well. Thanks in part 
to better inventories, we have also learned that the owl uses a 
greater variety of habitat than was initially assumed.
    In 1994, when the President's Forest Plan was adopted, the 
landscape really changed. In one fell swoop, millions of acres 
of spotted owl habitat were set aside and stringent standards 
and guidelines were adopted, drastically altering the 
management of nineteen national forests and eight BLM 
districts. As a result, at least 88 percent of the 24 million 
acre land base is now off limits to timber management 
activities. This created a vastly different picture from the 
one described in 1990, when the Service decided that the owl's 
habitat was threatened because 63 percent of the national 
forest land within its range was subject to timber harvest.
    Now, four years after adoption of the President's Forest 
Plan and eight years after the spotted owl was listed, it is 
time to reevaluate the status of the owl, the condition of its 
habitat, the results of the agencies' management under the 
plan, monitoring results, and plans for future research. We 
must ask, how has management affected the owl, and what effect 
has the owl had on forest management? How much have we spent on 
management and monitoring activities, and what were the 
results? And most importantly, when and how will we know 
whether the decisions we made in the first half of this decade 
have worked, so that the owl can ultimately be removed from the 
threatened list?
    The growing body of scientific data on the population of 
the northern spotted owl, the area and type of habitat it 
requires, and changing management direction for both Federal 
lands and other lands have rendered obsolete many of the 
original assumptions about the owl and its habitat. Now, 
scientists and land managers have raised new concerns that the 
invasion of the barred owl and the very real threat of 
catastrophic fire in ``reserved'' lands pose an even greater 
threat to the owl. These concerns need to be addressed.
    It is critical that we ensure, through this Committee's 
oversight responsibility, that national forest management 
decisions are made and taxpayer dollars are spent wisely. It is 
my intent that this hearing will shed light on some of our 
questions and help identify what changes may be needed to 
significantly improve management of the owl and its habitat in 
the future.

    Mrs. Chenoweth. If and when the Minority Member arrives, I 
will recognize him for any statements he may have; otherwise, 
I'm sure he'll have a statement that we'll be happy to submit 
in its entirety to the record. So with that, I'm very pleased 
and honored to introduce our first witness, the Honorable Wally 
Herger. Mr. Herger.

 STATEMENT OF HON. WALLY HERGER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Herger. Thank you very much, Madam Chairman, and I 
thank you for this opportunity to testify today regarding 
oversight of the northern spotted owl.
    When this species originally was listed by the Fish and 
Wildlife Service on June 26, 1990, the Service indicated two 
reasons for declaring the northern spotted owl as a threatened 
species. One, widespread destruction and modification of its 
habitat, and, two, existing regulatory mechanisms were 
inadequate to control further habitat loss.
    However, since 1990 the definition of suitable habitat for 
the northern spotted owl has expanded until it now includes 
approximately 80 percent of the forested lands in California 
alone. Therefore, of the Service's two reasons for listing the 
owl--one, widespread destruction and modification of owl 
habitat has not occurred, and, in fact, an increase in habitat 
has been found; and, two, California regulatory mechanisms have 
been found to provide adequate habitat protection.
    In addition, since this listing, owl numbers have been 
found to be much higher than previously estimated. In 1986, the 
National Audubon Society convened a blue-ribbon panel of 
experts to determine how many owls were needed to keep the 
species viable. They determined viability would require between 
1,100 and 1,200 pairs, or 2,200 to 2,400 total owls.
    In 1991, the U.S. Fish and Wildlife Service reported that 
further studies established that at least 3,500 known pairs of 
owls, or 7,000 total owls, throughout California and the 
Pacific Northwest.
    Madam Chairman, this is three times the number experts 
originally reported were needed for a viable population. In 
addition, in 1995 the U.S. Forest Service reported an 
additional 2,600 to 4,000 California spotted owls in northern 
California. According to Forest Service biologists, California 
spotted owls are genetically identical to northern spotted owls 
and fully capable of inter-breeding with the northern spotted 
owl.
    The only difference is that California owls live in the 
Sierra Nevada mountain range, while the northern owl lives in 
the Cascade mountain range. This means that just two years ago 
there were between 9,600 and 11,000 total spotted owls in 
California and the Pacific Northwest--between four and five 
times the number that sci-

entists have stated are needed to keep the species viable. Each 
year the total number increases as new nesting sites are 
confirmed, yet the species is still listed as threatened and is 
still managed as though it were in decline.
    Since the listing of the northern spotted owl, 36 mills in 
my district alone have been forced to close their doors. A 
thirty-seventh mill is currently shut down until more local 
timber supplies can be found. This dramatic loss of jobs has 
forced many community members into the welfare rolls.
    A professor at the University of California at Berkeley 
estimated, in 1993 alone, the unemployment compensation 
resulting from the implementation of the President's plan for 
the spotted owl increased by over $745 million. In recent 
years, Trinity County, in my district, has had an unemployment 
rate that has at times hovered around 20 percent.
    Siskiyou County reported that in some years 23 of 29 
schools in the county have 50 percent or more of their children 
receiving meals for needy children. This is a tragedy. These 
people don't want welfare. They want to work.
    Madam Chairman, a strong economy and a healthy environment 
need not be mutually exclusive. The Endangered Species Act was 
never intended to foster intolerance in our society, yet that 
is exactly what happens every time we pit saving species 
against jobs and education.
    By relying on sound science, we can maintain spotted owl 
populations and ensure jobs for our communities and support for 
our schools. If there was once a need to protect the spotted 
owl, that need has clearly been met. It is time to review the 
manner in which we deal with the spotted owl.
    Madam Chairman, in closing I would like to draw your 
attention to the testimony of the California Farm Bureau 
Federation President, Bill Pauli, and request it be entered 
into the record. This testimony goes into greater detail on 
what the impacts of listing of the owl have had on California.
    Again, I thank you for this opportunity to speak on behalf 
of my constituents in northern California.
    [The prepared statement of Mr. Herger follows:]

 Statement of Hon. Wally Herger, a Representative in Congress from the 
                          State of California

    Madame Chairman, members of the Subcommittee, thank you for 
the opportunity to testify today regarding oversight of the 
northern spotted owl.
    When this subspecies originally was listed by the Fish & 
Wildlife Service on June 26, 1990, the Service indicated two 
reasons for declaring the northern spotted owl as a threatened 
species: 1). widespread destruction and modification of its 
habitat, and 2). existing regulatory mechanisms were inadequate 
to control further habitat loss. However, since 1990, the 
definition of suitable habitat for the northern spotted owl has 
expanded until it now includes approximately 80 percent of the 
forested lands in California alone. Therefore, of the service's 
two reasons for listing the owl, 1). widespread destruction and 
modification of owl habitat has not occurred and in fact, an 
increase in habitat has been found, and 2). California 
regulatory mechanisms have been found to provide adequate 
habitat protection.
    In addition, since its listing, owl numbers have been found 
to be much higher than previously estimated. In 1986, the 
National Audubon Society convened a ``blue ribbon panel'' of 
experts to determine how many owls were needed to keep the 
species viable. They determined viability would require between 
1,100 and 1,200 pairs, or 2,200 to 2,400 total owls. In 1991, 
the U.S. Fish & Wildlife Service reported that further studies 
established at least 3,500 known pairs of owls--or 7,000 total 
owls--throughout California and the Pacific northwest. This is 
three times the number experts originally reported were needed 
for a viable population. In addition, in 1995 the U.S. Forest 
Service reported an additional 2,600 to 4,000 California 
spotted owls in northern California. According to Forest 
Service biologists, California spotted owls are genetically 
identical to northern spotted owls and are fully capable of 
interbreeding with the northern owl. The only difference is 
that California owls live in the Sierra Mountain range, while 
the northern owl lives in the Cascade Mountain range. This 
means that just 2 years ago there were between 9,600 and 11,000 
total spotted owls in California and the Pacific northwest--
between four and five times the number that scientists have 
stated are needed to keep the species viable. Each year the 
total number increases as new nesting sites are confirmed. Yet 
the species is still listed as threatened and is still managed 
as though it were in decline.
    Since the listing of the northern spotted owl, 36 mills in 
my district alone have been forced to close their doors. A 37th 
mill is currently shut down until more local timber supplies 
can be found. This dramatic loss of jobs has forced many 
community members onto the welfare rolls. A professor at the 
University of California at Berkley estimated, in 1993 alone, 
the unemployment compensation resulting from the implementation 
of the President's plan for the spotted owl increased by over 
$745 million dollars. In recent years, Trinity County in my 
district has had an unemployment rate that has at times hovered 
around 20 percent. Siskiyou County reported that in some years, 
23 of 29 schools in the county have 50 percent or more of their 
children receiving meals for needy children. This is a tragedy. 
These people don't want welfare. They want to work.
    Madame Chairman, a strong economy and a healthy environment 
need not be mutually exclusive. The endangered species Act was 
never intended to foster intolerance in our society, yet that 
is exactly what happens every time we pit saving species 
against jobs and education. By relying on sound science we can 
maintain spotted owl populations and ensure jobs for our 
communities and support for our schools.
    If there was once a need to protect the spotted owl that 
need has clearly been met. It is time to review the manner in 
which we deal with the spotted owl.
    Again thank you for this opportunity to speak on behalf of 
my constituents.

    [The prepared statement of the California Farm Bureau 
Federation may be found at end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Herger. Do you know if the 
National Audubon Society or the Fish and Wildlife Society have 
indicated how many owls are necessary today to preserve 
viability in that species?
    Mr. Herger. I do not. All I know is what they at one time 
indicated.
    Mrs. Chenoweth. OK.
    Mr. Herger. Back in 1986.
    Mrs. Chenoweth. So you don't know if they've changed 
their--revised their earlier estimates.
    Mr. Herger. I do not. I do know that we have identified at 
least four times--three to four times more than what they at 
that time indicated they needed for a viability.
    Mrs. Chenoweth. In the best of all worlds, if we had the 
best of all worlds, what would you recommend happen?
    Mr. Herger. Well, Madam Chairman, thank you for asking. I 
support the Endangered Species Act. I believe, however, it is 
not being implemented in a fair and equitable manner. I think 
we've shown in our area that we know a great deal more in how 
to manage our forests today than we did 20 to 30 years ago, and 
we have shown that we can manage and be able to have viable 
northern spotted owl populations and still be able to go in, 
and by thinning our forests, working to restore them to their 
historic levels--they are currently in areas two to three times 
denser than they were--that we can thin these forests out, be 
able to have a very viable habitat for the northern spotted 
owl, and at the same time be able to supply our communities 
with the jobs to keep wood products for our mills and supply 
our country with the very needed wood products that they need 
to keep our country going.
    I would like to see some of this balance brought into play 
that is very obviously out of balance now. I'd like to see the 
politics removed. We have a number of special interests. I'm 
afraid within the environmental community that they have staked 
out a philosophy that seems to be refusing to look at new 
science. I don't believe our country can afford to continue in 
that direction any longer.
    Mrs. Chenoweth. Mr. Herger, is there anything else you 
would like to add for the record?
    Mr. Herger. I really don't. Again, I thank you for holding 
this very important hearing.
    Mrs. Chenoweth. You are very welcome, and if you have the 
time you are welcome to join me on the dias.
    Mr. Herger. Thank you. If you could excuse me, I do have an 
airplane--I'm headed back to California--but thank you again 
very much.
    Mrs. Chenoweth. You're welcome. Thank you, Mr. Herger.
    I'd like to call our second panel of witnesses now. I do 
want to explain that I intend to place all of our witnesses 
under oath. This is a formality of the Committee that is meant 
to ensure open and honest discussion and should not affect the 
testimony given by witnesses. I believe all of the witnesses 
were informed of this before appearing here today, and they 
have each been provided a copy of the Committee rules.
    And so now we welcome Dr. Mark Boyce, College of Natural 
Resources, University of Wisconsin, Stevens Point, Wisconsin; 
Dr. Robert Taylor, Endangered Species Group, Orangevale, 
California; Dr. Larry Irwin, National Council for Air and 
Stream Improvement; Sean Cosgrove, legislative coordinator, 
ForestWater Alliance in Washington, DC.
    Gentlemen, I wonder if you might rise and extend your hands 
to the square.
    [Witnesses sworn.]
    Mrs. Chenoweth. Under our Committee rules, witnesses must 
limit their oral statements to 5 minutes, but your entire 
statement will be admitted to the record and appear in its 
entire context. We will also allow questioning after you have 
finished, and I also want you to know that the record does 
remain open for a period of 10 days should you wish to 
substitute any information or add to your testimony. You are 
welcome to do so. You also need to know that I, too, will 
probably be sending you additional questions, and so we would 
appreciate a response from you within 10 days.
    The Chair is very pleased to see that Mr. Faleomavaega has 
joined us. Mr. Faleomavaega, do you have a statement?
    Mr. Faleomavaega. Madam Chairman, thank you for the 
opportunity and for your conducting this hearing on this issue. 
I don't have an opening statement, but I do look forward to 
hearing from our witnesses this morning. I'm sorry that I 
missed the testimony by our colleague, Congressman Herger, whom 
I understand has already testified before the Subcommittee, but 
thank you for the opportunity and I look forward to hearing 
from our witnesses. Thank you.
    Mrs. Chenoweth. Thank you, and the Chair recognizes Dr. 
Boyce.

 STATEMENT OF DR. MARK S. BOYCE, COLLEGE OF NATURAL RESOURCES, 
                    UNIVERSITY OF WISCONSIN

    Dr. Boyce. Thank you. Madam Chair, and members of the 
Subcommittee, thank you for the opportunity to address this 
group.
    I've been conducting research on the northern spotted owl 
since 1987. I wish to call your attention to our new study 
recently accepted for publication as a Wildlife Monograph. I've 
attached the abstract from this monograph to the written 
testimony.
    Our research provides new information that challenges the 
dispersal-based model that is the fundamental basis for the 
President's forest management plan. Despite the focus on 
ecosystem management in the President's forest management plan, 
there is no question but what the spatial outlay of protected 
areas was driven initially largely by the Interagency 
Scientific Committee's work on the northern spotted owl.
    Forest fragmentation--that is, the break up of the forest 
into isolated pieces--has been presumed to be a major factor 
threatening the future of the spotted owl. In fact, it's 
fundamental to the model that drove the forest management plan.
    Our study was designed explicitly to test this assumption 
of the role of forest fragmentation, and we found no evidence 
that large-scale fragmentation influences the distribution or 
occupation of habitat by the northern spotted owl. Rather, the 
distribution and occupancy was driven by the loss of habitat, 
and habitat is a rather complex configuration as it relates to 
the northern spotted owl. It includes such things as the 
juxtaposition of old growth with shrubby areas and pole timber 
stands that are very important because they provide dispersing 
rodents that are prey for the northern spotted owl.
    This new information challenges the focus of the 
President's plan on designated conservation areas and raises 
the hypothesis that dispersed smaller blocks of old growth may 
be actually more effective at ensuring the viability of the 
northern spotted owl.
    Ours is not the only such study. Several studies have been 
published in the last 4 years that have come to the same 
conclusion, that the early focus upon the dispersal of young 
owls and the importance of spatial distribution for the owls, 
has been misplaced.
    Madam Chair and members of the Committee, I am concerned 
that our new information will not be used. I believe that there 
is so much bureaucratic inertia in the President's Forest Plan 
that there will be little attempt to evaluate how effectively 
the plan is working for the northern spotted owl, nor will 
there be opportunity to reconsider its effectiveness.
    The forest management plan needs adaptive management. It 
needs a rigorous interface between science and management. In 
the Forest Ecosystem Management Assessment Team report, 
adaptive management areas were designated to be set aside for 
experimental management. There are 10 such areas in the Pacific 
Northwest. The Forest Service has been slow to implement these 
adaptive management areas, and the Fish and Wildlife Service 
has created hurdles to conducting experimental management on 
the north-

ern spotted owl. We cannot break the management gridlock in the 
Pacific Northwest without new information and without research 
and monitoring.
    I ask the Subcommittee to do two things; one, to do what is 
necessary to ensure that the Forest Service and the Fish and 
Wildlife Service work together to ensure adaptive management 
protocols for big picture issues related to the northern 
spotted owl, and that these be implemented on each and every 
adaptive management area. And second, I request that you enlist 
the National Research Council to design institutional 
mechanisms that would facilitate true adaptive management on 
our public lands.
    Thank you very much for the opportunity to testify.
    [The prepared statement of Dr. Boyce may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you very much, Dr. Boyce. The Chair 
now recognizes Dr. Robert Taylor, Endangered Species Group, 
Orangevale, California.

 STATEMENT OF DR. ROBERT J. TAYLOR, ENDANGERED SPECIES GROUP, 
                     ORANGEVALE, CALIFORNIA

    Dr. Taylor. Thank you, Madam Chairman. I've been asked to 
testify today because for the last 6 years I have spent a great 
deal of time working with data on the northern spotted owl in 
California--analyzing it, plotting it on maps, and feeding it 
into computer models.
    I shall limit my answers to the three questions that form 
the topic of this hearing to conditions in California alone, 
and I'll be repeating to some extent Congressman Herger, I'm 
afraid.
    Question one: the status of the northern spotted owl. To 
understand the status of the owl in California, it helps to 
know that the State's Department of Fish and Game has, for a 
number of years, maintained a centralized data base for spotted 
owl observations that everybody who surveys owls, public and 
private, contributes to and considers reliable.
    At the time of the spotted owl status review in 1989, the 
State data base contained observations on about 500 pairs of 
owls. Observations were heavily clustered on national forests, 
with a light scattering on private land. Scientists looking at 
this pattern thought it meant that the owl population was 
becoming increasingly patchy as its old growth habitat 
disappeared. The few owls known to occupy second-growth forests 
on public or private lands were considered outcasts from good 
habitat, residents of population sinks where survival and 
reproduction were low.
    Data on private lands were largely absent at the time the 
listing decision was made. Intensive surveys of private 
industrial forests only began at that time. Subsequently, those 
surveys have found surprisingly large numbers of owls, resident 
and breeding, in second-growth commercial forests. We know now 
that the first impressions of the size and extent of the 
spotted owl population did not reflect the ecology of the 
spotted owl so much as they reflected incomplete and biased 
survey data.
    Using a recent version of the State data base, I've 
estimated the number of breeding pairs in California to be 
approximately 1,800. The spatial pattern of these territories 
shows complete coverage of the surveyed forests of northwest 
California. Spotted owls are found breeding in habitats ranging 
from redwood forests in the north to hardwood-dominated stands 
in the south. California exhibits an enormous variety of 
managed forest types, all of which appear to be occupied by 
owls.
    Although various habitat studies suggest that owls prefer 
dense stands of large trees, banding studies have not shown a 
difference in survival and reproduction between owls living in 
relatively undisturbed old growth and in managed second growth.
    To summarize, the scientific theory that dominated the 
President's Forest Plan, that the spotted owl population was 
headed toward a precarious existence in a limited number of 
refuges, has not held up to new information gathered in 
California. The spotted owl appears to be more flexible in its 
use of forest habitats and its population more robust than 
originally thought.
    Question two: the impact of national forest management 
activities on owl populations. The primary effect of the 
President's plan in California has been to stop nearly all 
logging in the national forests. What impact this has had on 
the spotted owl is difficult to assess since the plan was 
implemented shortly after the Forest Service put a nearly 
complete stop to owl monitoring.
    One can only speculate about the effects of an aging and an 
increasingly homogeneous forest on owl populations. My own 
speculation is that the trend will be worse for the owl, as its 
preferred prey in more open forests, the dusky-footed woodrat, 
is replaced by the smaller and less common flying squirrel.
    Question three: the impact of the owl on management 
activities. How much of the change in national forest 
management should be attributed to the concern for spotted owls 
is difficult to know. While the owl served as the poster child 
for the President's Forest Plan, the FEMAT team generalized the 
issue far beyond this one species.
    The major impact on private land, in my opinion, is the 
concentration of the forest industry into fewer larger 
landowners. Sixty-four lumber mills have closed in northern 
California in the last 10 years, a number of these small, 
family owned operations. The larger companies that survived 
have more resources to put into regulatory issues and have seen 
the values of their land soar.
    How this shift will play out in forest management is not 
yet clear. Optimists think that private forest management will 
fall into increasingly professional hands. Pessimists believe 
that return on investment will increasingly win out over good 
forest stewardship.
    Nobody I talk to in the regulatory agencies in California 
seems particularly concerned about spotted owls anymore. The 
species has become a low priority item. Given that, one wonders 
why Federal and State regulators will not consider revising 
habitat standards crafted back in the Dark Ages of spotted owl 
science. Presumably, new, relaxed standards would still ensure 
the conservation of the species, yet we seem to be permanently 
stuck in limbo on spotted owls.
    Six years after the publication of a draft recovery plan, 
no final plan has appeared. Four years after the Fish and 
Wildlife Service initiated section 4(d) rules for private 
lands, no rule has been published. While local Fish and 
Wildlife personnel are perfectly willing to accept that science 
has changed, the agency itself seems unable or unwilling to 
reflect those changes in a programmatic document.
    Thank you.
    [The prepared statement of Dr. Taylor may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you very much, Dr. Taylor.
    Dr. Larry Irwin, National Council for Air and Stream 
Improvement, Stevensville, Montana.

 STATEMENT OF DR. LARRY L. IRWIN, NATIONAL COUNCIL FOR AIR AND 
           STREAM IMPROVEMENT, STEVENSVILLE, MONTANA

    Dr. Irwin. Thank you, Madam Chairman. My purpose today is 
to present to you four topics that are related to scientific 
information that has been gathered about the owl since the owl 
was listed in 1990.
    The first topic has to do with the spotted owl population 
trends. We've been doing a study on the spotted owl population 
since 1990 in the eastern Cascades of Washington. We found 
that, using innovative analytical techniques, survival rates of 
adult female owls in that population have apparently been 
stable since 1990, therefore there is some room for optimism 
for at least that population.
    The second topic has to do with linking population trends 
with trends in habitat conditions. Since 1990, we have found 
that the relationship, between spotted owls and forest 
conditions are much more complex than we thought previously.
    For example, in our studies in eastern Washington, we have 
found that owls in managed forests there have twice the rate of 
reproduction, despite having access to about half as much late-
successional old growth forests as spotted owls in reserved 
areas along the crest of the Cascades. That seemingly totally 
contradictory pattern is related to physical environmental 
attributes that presumably translate into abundance or access 
to the spotted owl's food base.
    The third topic has to do with the risk of large-scale 
wildfires. After the owl was listed in 1990, we learned that 
extensive wildfires are likely to occur in owl habitats in the 
eastern Washington and Oregon Cascades, as well as the Klamath 
Region in southern Oregon and northern California.
    The risks are highest and sometimes extreme in areas where 
dense, undergrowth trees create ladder conditions for small 
fires to enter forest canopies and thereby escalate into 
landscape-scale fires.
    Given that, managers have to face a very difficult 
question. How can we protect spotted owls in areas that are 
also prone to landscape-scale fires? One implication, similar 
to what Dr. Boyce pointed out, is that simply mapping old 
forests and setting aside large blocks of those forests, may 
not be the optimal strategy in the long run for spotted owl 
conservation in fire-prone areas.
    What to do about these topics is my fourth point, the value 
of adaptive management. It should be possible to condition 
forests in fire-prone areas to reduce the risk of fire and yet 
maintain the owl, and it should also be possible to create 
spotted owl habitat in managed forests. Working toward both of 
those goals requires manipulating forests to test several 
promising options simultaneously in an adaptive management 
program. However, to my knowledge, the adaptive management 
activities proposed for northern spotted owls by the Thomas 
Committee in 1990 have yet to become operational. Moreover, 
Federal monitoring programs for the owl have been reduced.
    In summary, there appears to be significant new information 
on spotted owls that would seem worthy of consideration in 
conservation and management. Possibly a group of scientists 
might be empaneled to examine the data and suggest mechanisms 
for rapid application.
    Furthermore, and mindful of the need for justifiable 
budgets these days, I respectfully make the following specific 
suggestions. I suggest to increase funding for research that 
links owl population dynamics with habitat factors and with 
attributes of the physical environment.
    Secondly, I would encourage research on forestry methods 
that may be compatible with spotted owls and that 
simultaneously reduce the risk of large-scale wildfire. And 
third, I suggest to enable adaptive management programs that 
can identify a combination of conservation strategies--not 
necessarily a single strategy, but a combination for protecting 
spotted owls across a landscape mix of managed and unmanaged 
forests.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Irwin may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you very much, Dr. Irwin.
    The Chair recognizes Sean Cosgrove, legislative 
coordinator, ForestWater Alliance, Washington, D.C. Sean?

     STATEMENT OF SEAN COSGROVE, LEGISLATIVE COORDINATOR, 
              FORESTWATER ALLIANCE, WASHINGTON, DC

    Mr. Cosgrove. Thank you, Madam Chairman, and Mr. 
Faleomavaega, for allowing me the opportunity to testify here 
today. It is an honor to be here before the Subcommittee and on 
this panel with these learned gentlemen here.
    The coalition I represent consists of 21 national and 
grassroots conservation groups across the Pacific Northwest. 
These are groups that have a long history of involvement in 
Federal forest management, and particularly involvement with 
the Northwest Forest Plan. Across the region these groups 
collectively represent about 100,000 citizens.
    For decades in the Pacific Northwest, the Federal 
Government has been in the business of selling off ancient 
forests from our public lands. Throughout the 1980's, the 
Forest Service allowed ancient forests to be logged at a pretty 
phenomenal rate. By 1987, the timber industry was logging an 
estimated 170 acres of old growth--that's the equivalent of 
about 129 football fields of ancient forest every day. The 
draft forest management plans that the Forest Service was 
looking at at that time called for the continued liquidation of 
old growth forests.
    By the early 1990's, much of our national forests in 
western Washington, Oregon, and northwest California were a 
tattered maze of clear-cuts and logging roads. Ancient forests 
that previously covered the region have been left in scattered 
remnant stands. The practice of clear-cutting old growth 
forests has not only harmed forest-dwelling species, but has 
also seriously damaged salmon streams and degraded watersheds 
that provide drinking water to so many people in the Pacific 
Northwest.
    Well, by this time in the early 1990's several forest 
species and salmon runs were on the brink of extinction. 
Continued illegal logging of ancient forests eventually led a 
U.S. Federal court to stop old growth logging until a plan was 
devised to protect the Northwest's ancient forests and salmon 
streams. This injunction and the need to provide better, 
scientific management led to the creation of the Northwest 
Forest Plan.
    The Northwest Forest Plan was heralded by the Clinton 
Administration as the plan that would protect and recover 
ancient forests, salmon populations, and numerous other forest-
dwelling species. However, since this plan was put into effect 
in May 1994, we believe it has fallen quite short. Four years 
after Mr. Clinton's Forest Plan, Forest Service personnel have 
been exploiting loopholes in the plan to clear-cut in 
streamside reserves, log on steep, landslide-prone slopes, log 
in ancient forest reserves, log in unprotected wilderness, and 
log in watersheds that provide communities with drinking water.
    The ForestWater Alliance compiled a report that provides a 
snapshot of Northwest national forest management in fiscal year 
1997. Compiling information from Federal fiscal year 1997 
timber sales in the 17 national forests and 6 BLM districts in 
Washington, Oregon, and California that are managed under the 
Northwest Forest Plan, we found that the Forest Service logged 
over 7,000 acres of ancient forest, over 5,500 acres of forest 
in streamside reserves, and over 7,800 acres of forest in 
ancient forest reserves.
    To compound that problem, we've seen that more timber sales 
sold in municipal watersheds and unprotected wilderness. One of 
these sales is--I'll give you an example--the Lane Creek timber 
sale, which is the municipal watershed for the town of Cottage 
Grove, Oregon. If you were to go hiking up there or walk 
through this municipal watershed, you'd see that the Forest 
Service and the town of Cottage Grove have put up signs asking 
people not to camp in this area and asking people not to go 
swimming in the streams or ponds in these areas because they 
want to protect the municipal water supply. But at the same 
time, the Forest Service is planning a timber sale there. I can 
show you some pictures here--maybe I'll pass them up to you 
afterwards--of the signs up there in the forest, in the 
municipal watershed, asking people to stay out of there.
    Well, another reason for this Northwest Forest Plan is the 
need to protect salmon. Salmon are part of our national 
heritage and an important symbol of Northwest culture. 
Preventing salmon extinction means protecting the forest 
streams where these fish feed and lay their eggs. Logging and 
road construction can fill the streams with silt and eroded 
material, and as you know, this smothers fish eggs and 
literally chokes salmon to death.
    Well, the Northwest Forest Plan has failed to protect 
threatened and endangered salmon populations in several ways. 
The effect is continued degradation of salmon habitat, decline 
in salmon populations, and an impact on tens of thousands of 
fishing jobs. If you look on the back of my written testimony 
there, you'll see a cut-out there from the Oregonian newspaper 
which shows a scale of the size of acreage of imminent listings 
for threatened and endangered salmon species.
    Our Federal forests also provide many people with clean, 
clear drinking water. In Oregon alone, more than half of the 
population gets its drinking water from streams originating in 
Federal forests. Logging and road construction in community and 
municipal drinking watersheds add erosion and silt to the 
drinking water. During winter storms, the runoff from roads and 
clear-cuts can turn clear streams into muddy torrents. In some 
instances this can place the drinking water supplies for whole 
communities in jeopardy.
    In 1996, the North Santiam River was filled with silt and 
mud when heavy rains hit a landscape that had been degraded by 
clear-cuts and logging roads. This caused many major 
landslides. Residents and businesses were forced to 
dramatically curtail water use and buy water from a neighboring 
community when muddy water threatened to destroy Salem's 
filtration system.
    Many landslides have occurred since 1996, and many slides 
continue to bleed silt into Salem's drinking water supply. 
Despite these circumstances, four 1997 timber sales will log an 
additional 791 acres in the same watershed. The Mayor of Salem, 
Mike Swaim, the past mayor, and several Salem City Council 
members have sought to protect the watershed from Federal 
logging plans, pending results of a Government Accounting 
Office investigation.
    Mayor Swaim comments, ``Every time they log off another 
timber sale in Salem's municipal watershed, I worry about our 
drinking water. What you see in a clear-cut is what you get in 
your drinking glass--dirt.'' Well, the government's response 
has been to double logging in the North Santiam watershed in 
1998.
    The Northwest Forest Plan was an ambitious undertaking, and 
it has made some improvements to Federal forest management in 
the Pacific Northwest. However, the plan still allows for the 
destruction of ancient forests, the degradation of salmon 
streams, and the development of unprotected wilderness. The 
Northwest Forest Plan allows logging and road construction in 
communities' drinking water supplies. The Northwest Forest Plan 
is full of loopholes that allow logging in ancient forests and 
streamside reserves. Some loopholes even allow for clear-
cutting across streams.
    Mrs. Chenoweth. Mr. Cosgrove, will you be able to wrap it 
up?
    Mr. Cosgrove. Real quick here.
    Mrs. Chenoweth. Thank you.
    Mr. Cosgrove. Is this what Northwesterners thought they 
were getting when the forest plan was devised? We don't think 
so. Four years after adoption of the plan, it is clear that 
residents of the Northwest want better protection. A recent 
poll conducted by the ForestWater Alliance shows that 72 
percent of residents across the region want to see more Federal 
lands designated as wilderness. The time has come to honestly 
assess the problems with the Northwest Forest Plan and Federal 
forest management to work together for better forest protection 
on our public forests.
    Thank you very much.
    [The prepared statement of Mr. Cosgrove may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you very much.
    I'd like to ask Dr. Boyce first, and then I would like Dr. 
Irwin to also answer this. If you would explain your concerns 
with the Fish and Wildlife Service's models that predict owl 
populations are declining.
    Dr. Boyce. The demographic models that have been used 
provide only a capture of the current, or recent past, change 
in the population. They give you no idea, whatsoever, of the 
future for that population. So, characterizing lambda, which is 
the growth rate for the population based upon these models that 
include information on survival and reproduction are a 
characterization of how the population is changing at the time 
that it's being monitored. But, that tells you absolutely 
nothing about the long-term trajectory for that population. 
And, it's often times misunderstood, I believe, that people 
think that if the population is declining, that it's going to 
continue to decline. There's no necessary reason that would be 
the case whatsoever.
    Mrs. Chenoweth. Dr. Irwin?
    Dr. Irwin. I, too, respond to that, Madam Chairman. One is 
that whenever we do modeling for wildlife population trends, we 
like to use several lines of evidence to help us make 
conclusions. In this case, we have, basically, two lines of 
evidence; one are the models, which are computer-based models 
of survival of adult females, for example. It's based on 
sampling female owls in the summer habitats that they occurred 
in. The other has to do with, just simply, observations from 
year to year, to find out whether the owls that were there last 
year are occupying the sites again this year. It turns out that 
those two forms of evidence don't exactly correspond with each 
other, which raises some question about the accuracy of the 
modelling procedure.
    And, in asking those questions, we commissioned some 
statisticians to examine some of the assumptions that go into 
those models and found that, when those assumptions fail, that 
there's a high likelihood for selecting a model that can be 
interpreted to mean that the owl population is declining at an 
accelerating rate, but--which would be an incorrect 
interpretation of what is actually happening. We accounted for 
that in some new modelling that we did that had to do with the 
way female owls are captured. One of the assumptions has to do 
with the expectation that all individuals are captured 
independently of each other. We know that is not true for 
spotted owls, because we don't find females unless we find 
their mated males first. When we accounted for that in our 
study on the east side of the Cascades in Washington, we found 
out that our annual survival rate trends were flat, were 
constant, and were not declining.
    Mrs. Chenoweth. Interesting. Dr. Taylor, what is needed, in 
your opinion, to demonstrate that the owl is in recovery beside 
the population?
    Dr. Taylor. Madam Chairman, I think the evidence in 
California is that the owl is constant, and I think there is 
almost unanimous agreement among scientists in California that 
it is. I don't know how--this is a territorial species. It's 
intolerant of crowding above a certain level. I don't know how 
you could show growth in this population. I don't think the 
owls are going to permit themselves, the population, to grow. 
If the standard that's been articulated is we have to show 
growth in the population, then we will never meet a standard 
for recovery. I think we have recovery in California.
    Mrs. Chenoweth. We just heard Dr. Boyce testify about 
cycles, where we see cycles in the declining of the population 
and increase in the population. Based on your studies, what is 
the period of time of these cycles?
    Let me back that up by saying I was in California just 
recently, and I had heard that actually there are more owls 
down there now than there were in pre-Columbian times.
    Dr. Taylor. Well, I don't think we have very good data from 
pre-Columbian times.
    Mrs. Chenoweth. I don't think so either.
    [Laughter.]
    Mrs. Chenoweth. I wondered where they got that.
    Dr. Taylor. But, I think a lot people feel that the 
conditions for the owl are as good now as they could possibly 
be.
    Mrs. Chenoweth. By the way, I heard that from the agencies.
    [Laughter.]
    Dr. Taylor. Maybe they have better data than I have. The 
owl is a long-lived species and, as such, is not really 
vulnerable to too many short-term oscillations. There's no 
question but that--the primary variation in its life history 
has to do with its apparent failure to breed in wet springs. 
This year, for example, has been wet in California, and, so 
far, we're not seeing owls calling or showing evidence of 
breeding. And, evidence suggests that they may be able to go 
for a couple of years with complete failure to breed, but they 
live so long that they recover in the good years.
    Mrs. Chenoweth. And, they live how long?
    Dr. Taylor. Oh, people are talking about 15-20 years, 
sometimes, as a maximum life span.
    Mrs. Chenoweth. Based on the models that the agencies have 
been operating within, can a stable but fluctuating population 
meet the Fish and Wildlife Service's test today for recovery?
    Dr. Taylor. I don't think so. The only test that I have 
seen was in the draft recovery plan, and that test was so 
stringent, that I don't believe we will ever, ever get the data 
that will meet that test, no matter how stable the owl 
population is.
    Mrs. Chenoweth. I see that my time is almost up, and I do 
want to yield to Mr. Faleomavaega.
    But, specifically, if you were to change the models and the 
tests to make it reflect a more accurate population, how would 
you do that, specifically?
    Dr. Taylor. The original demographic model, which Dr. Boyce 
referred to, only has three simple equations in it. There's a 
new generation of models, of computer-simulation models based 
upon individual models--owls of individual--pardon me--it's 
based upon the aggregation of models of individual owls in the 
computer. There are different ways of doing this. I think this 
new generation of models has a lot to offer. Unfortunately, 
very little attention has been given to getting the data that 
will make that generation of models operational.
    Mrs. Chenoweth. The Chair yields to Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chairman, and I want to 
thank the gentlemen for their testimonies.
    I feel a little, somewhat intimidated by the caliber of the 
witnesses that we have. I'm just a little country hick from 
some little dinky island out there in the middle of the 
Pacific. I'm trying to have some sense as a layman and trying 
to understand the scientific issues affecting the fate of the 
status of the spotted owl in California. As a layman, I also 
have come to understand that even scientists disagree among 
themselves as to what is the truth, if we're looking for the 
truth or the facts on this issue. And, it seems that for now, 
some 8 years later, that we've taken another turn in examining 
and reviewing this issue. I want to thank you, Madam Chairman, 
for doing this because it is needful. And, hopefully, that we 
might come out with some viable solutions to the problems that 
are before us.
    As I said earlier about even disagreements among the 
scientists, or even in the scientific community, I'm reminded 
of a story that was told to me about the $10 billion industry 
that our country now has in conducting open-heart surgeries. 
For about $50,000 a pop that a surgeon would gladly cut into 
your chest, and do a bypass operation. Only to find out that in 
recent years that medical doctor who graduated from Harvard Law 
School, and, of course, this is not new information or a 
discovery by this doctor about this amino acid called EDTA, 
that, for much cheaper costs, in clearing your clogged up veins 
and arteries--the process is now called ``killation'' and that 
the American Medical Association frowns and literally opposes 
any use of this, a fact that has been proven. Many of the 
people who have taken this EDTA amino acid--it has done wonders 
for them--and they didn't have to pay for a $50,000 heart 
surgery operation because of this.
    So, I'm a little puzzled here, gentlemen, because I'm sure 
that we have also members of the scientific community among the 
agencies that are going to be testifying this morning. So, we 
have this sense of disagreement. If I heard correctly, and 
correct me if I'm wrong, I think, Dr. Irwin, you say that 
spotted owls tend to become prolific when there's logging 
operations. Has that been a true observation?
    Dr. Irwin. I'm sorry. Would you repeat that, please?
    Mr. Faleomavaega. That spotted owls tend to become more 
prolific when there's logging operations?
    Dr. Irwin. That's not a general conclusion that anyone 
shares, I believe. And, if it's attributed to me, it would 
certainly apply only to a few areas in the eastern Cascades, 
where it had nothing to do with clear cutting. It was partial 
cutting, apparently, and maybe previous fires that created a 
condition under which spotted owls, in managed forests, are 
doing better than those in more extensive, late-successional 
forests that have not been managed. That is true.
    Mr. Faleomavaega. What is the total population of the 
spotted owl now in the area in question?
    Dr. Irwin. I don't know.
    Mr. Faleomavaega. Gentlemen, have you conducted any studies 
recently, Dr. Taylor or Dr. Boyce?
    Dr. Taylor. Well, I gave you a statistic estimate of 1,800 
pairs of owls in California and a probable estimate of about 
5,000 total owls. I think that's reasonable and conservative 
for the State of California.
    Mr. Faleomavaega. And, this is the only reason the spotted 
owl survives or exists, or does it exist in other areas of the 
country?
    Dr. Taylor. No. It's just one of three states. I think 
California has a very large population, probably equal to that 
of Oregon, but it's one of the few places where we've got the 
kind of statistics--data available that allow you to make that 
kind of projection.
    Mr. Faleomavaega. Dr. Boyce?
    Dr. Boyce. If you sum Bob's numbers with the agency numbers 
for Oregon and for Washington, you'll come up with 
approximately 12,000 owls, I believe.
    Mr. Faleomavaega. Am I taking correct here that you 
currently have a basic disagreement on how the Fish and 
Wildlife and the Forest Service go about doing this scientific 
studies--exactly in determining what the fate and the status of 
the spotted owl has become, let's say, for the past 8 years, 
since we've taken this issue now since 1990 and it's to the 
forefront. Dr. Irwin?
    Dr. Irwin. I would like to respond to that. I wouldn't say 
it's a basic disagreement. I would say that there are some 
differences in opinion on how to go about that kind of 
research. And, my suggestion is that, the spotted owl issue has 
been cast in simple terms as old growth versus the owls, and I 
think that's been a very problematic dichotomy. Really, the 
issue is much more complex than that, and habitat is much more 
complex than simply trees.
    Mr. Faleomavaega. Well, Dr. Irwin, by expressing that 
opinion, it seems to me that there is disagreement in terms of 
your friends here among the Federal agencies which have taken 
the issue at heart. But, no, I appreciate your sharing that 
with us.
    Dr. Taylor?
    Dr. Taylor. If I could pose a question that I think you 
would agree would be nice to have an answer to--well, I could 
pose several--How much cutting would cause owls to fail to 
breed? That would be an interesting thing to know.
    Mr. Faleomavaega. Good question.
    Dr. Taylor. How much cutting would cause, say, a 10 percent 
reduction in adult survival. That would be good to know. Or, 
how much cutting would cause owls to pick up stakes and move 
somewhere else. We don't have answers to any of those three 
questions. Not only that, there is no research going on or 
planned that will answer those questions.
    Mr. Faleomavaega. I think, basically, Dr. Taylor, my time 
is up, I know, but here's the basic issue of the problem that 
we're faced with. At first there was indiscriminate logging, 
then, I think the Federal Government's come about and said 
we've got to do a more planned methodology in doing logging so 
that we don't create erosion. And, then the here in the 
question right in the middle of the whole thing is the spotted 
owl being involved in this. As I understand it, I think it was 
last year or a number of years ago, that there were 167 million 
cubic board feet worth of logging that has been done. So, it 
isn't that the logging has stopped. We're still cutting logs 
but in a more planned and a more systematic way, so that we 
don't indiscriminately cut the logs at the expense of erosion 
and causing other ecosystem or environmental harm.
    And I, for one, believe in a balanced approach to this 
whole thing about development, and, at the same time, also make 
sure that our ecosystem is kept safe, and make sure also that 
animals like the spotted owls and others are also protected. 
Now, whether or not 5,000 owls or 1,600 owls is a relative safe 
number to say, well that's all we need to have the owls to 
survive. I don't know, because I'm not a scientist. But, I 
think this is the crux of the issue that we're looking at.
    And, I think even from our friends who are in the logging 
industry, I don't think there's any problem that we should 
conduct logging, but doing it in such a way that doesn't 
detrimentally affect the environment. And, if it means that 
killing 5,000 owls, than maybe that's another question that you 
may want to add to the questions that you raised, and I 
appreciate your raising that issue. Maybe our friends in the 
Federal agencies will help us with that.
    Dr. Boyce?
    I'm sorry, Madam Chairman, but could I have one more 
question of Dr. Boyce?
    Dr. Boyce. Well, I'd just like to make the point that I 
think that scientists work with available information and 
existing data, and the available information and existing data 
are changing all the time. And, I think that it's very 
important that the Federal Government have in place the 
institutional capability to be flexible, to be able to adjust 
their management schemes when new information becomes 
available. And, it's not clear to me that we have that 
flexibility. I think that there's a lot of institutional 
inertia. We have a complex bureaucracy that has developed 
associated with the northern spotted owl and the existing 
management assessment plan, and so forth. It becomes very 
difficult to change the way in which the management is going 
on, as new information becomes available.
    Mr. Faleomavaega. I appreciate your comments, gentlemen, 
because I, for one, do not appreciate sometimes the 
bureaucratic hassle that we go through in trying to get a check 
or social security check to that constituent out there. But, at 
the same time, I think there's got to be a balanced approach to 
the situation. Now, I'm all for logging. I think the industry's 
got to survive. Americans need it. I don't know, necessarily, 
about exporting it to other countries, but for our own local 
consumption demands, I think it's needful.
    So, gentlemen, I want to thank you for your testimony. 
Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Faleomavaega.
    Gentlemen, I want to ask a personal favor of you. I do have 
some more questions, but our Assistant Secretary of 
Agriculture, Jim Lyons, has managed--he has another 
appointment, so I want to be able to bring him on so we can 
hear from him. Do any of you have a plane that you have to 
catch, or could you wait until we've heard from Mr. Lyons and 
the third panel, and then we will probably be calling you back.
    Thank you very much.
    The Chair now calls for our--and I'm just going to ask Mr. 
Lyons to come up--our Under Secretary, U.S. Department of 
Agriculture. Thank you, so much, for your patience, and I know 
that you do have another appointment, Mr. Lyons, so we'll----
    Mr. Lyons. I sincerely apologize, Madam Chairman.
    Mrs. Chenoweth. Well, that just never happens, but it did 
today. So, I wonder if you could stand and----
    Mr. Lyons. Oh, yes. But, of course.
    [Witness sworn.]
    Mrs. Chenoweth. Please proceed. Thank you.

STATEMENT OF JAMES LYONS, UNDER SECRETARY OF AGRICULTURE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Mr. Lyons. Thank you. I appreciate this opportunity to 
appear before the Subcommittee, and I would let you know that 
the witnesses who accompany me will remain and be able to 
address the substantive questions that the Subcommittee may 
have as the hearing continues.
    I do want to thank you for this opportunity to address the 
Committee, to discuss the impact and status of the northern 
spotted owl on national forests. I'm accompanied by Bob 
Williams, who's the regional forester from Portland, region 6, 
and Marty Raphael, scientist with the Forest Service's Pacific 
Northwest Research Station, who was intimately involved in the 
efforts to put together the President's Northwest Forest Plan. 
I'm also pleased to appear with representatives of the U.S. 
Fish and Wildlife Service today.
    One of the reasons we faced the problems in the Pacific 
Northwest at the beginning of this decade was in large measure 
because many Federal agencies had difficulty speaking with each 
other, let alone appearing on the same dais to discuss issues, 
and I'm glad to say that, over time, we have developed, I 
think, good solid working relationships among the Federal 
agencies who have some role or jurisdiction in addressing issue 
like the spotted owl. And, I think that's all to the betterment 
of the resource and the people that we serve.
    The Committee asked a number of questions, and I'll try to 
briefly address some of those and offer some insights into 
others.
    One obviously important question is how is the owl doing. 
We refer to the testimony here of our colleagues from Fish and 
Wildlife Service, the answer being, it's probably too soon to 
tell. Spotted owl is a long-lived species in a forest 
environment that changes slowly. Its populations may be 
affected by unique events and conditions from one year to the 
next that are, in part, unrelated to forest management. Thus, 
the data from the first years of the Northwest Forest Plan are 
not sufficient to give us confidence in any trend with regard 
to population dynamics for the owl. We, along with many, are 
looking forward to the results of the analysis next year that 
will give us our first scientifically credible look at recent 
trends.
    The Northwest Forest Plan, though, is not just a plan for 
spotted owls. As you know, Madam Chairman, we tried to write 
plans for the northern spotted owl, as was attempted late last 
decade, and we found that they didn't work. In fact, we know 
that they won't work. In 1988, and again in 1992, the Forest 
Service issued guidelines for the management for the habitat 
specifically for spotted owl. Both times, Federal courts ruled 
that our efforts were not adequate, and, in fact, enjoined 
timber sales in spotted owl habitat. The Bureau of Land 
Management encountered similar difficulty in its attempts to 
put together strategies to harvest timber on the O&C lands that 
they administer in Oregon.
    New timber sale offerings on Federal forests in northern 
spotted owl country came to a virtual halt at the turn of the 
decade. Timber workers in timber-dependent communities, already 
impacted by changes in the industry, by automation, and 
alternative markets and reorganization, were further impacted. 
Congressional efforts, such as section 318 of the 1990 
Appropriations Bill, while they sought to provide relief, in 
fact, only provide limited relief.
    In spite of these efforts, the gridlock that affected the 
region, primarily western Washington and Oregon, and 
northwestern California, continued. That led, in large measure, 
to the President's efforts, the President's Forest Conference 
in Portland, the subsequent efforts of the FEMAT team chaired 
by former Forest Service Chief Jack Ford Thomas, with the adept 
leadership of Marty Raphael, to the development of the 
President's Northwest Forest Plan.
    The Northwest Forest Plan is not just a plan for ensuring 
the viability of northern spotted owl. It provides significant 
protection for streams, riparian areas, water quality, and 
fish, fortunate that we did so given the current status of 
listings or potential listings for cut-throat and coho trout as 
well as bull trout over to the interior.
    The Northwest Forest Plan provides a system of old-growth 
and late-successional reserves, with a multitude of benefits to 
species that depend on old-growth forests. And, through the 
northwest economic adjustment initiative, the plan also 
provided help to communities who were suffering through the 
transition that was occurring in that region of the country.
    Two months after the plan's release, the court injunctions 
were lifted, clearing the way for agencies to offer new timber 
sales and for other management actions to take place for the 
first time, really, in 3 years. It was the acceptance of the 
President's Northwest Forest Plan by Judge Dwyer that really 
was the key to opening up new opportunities for management and 
fiber production in the Pacific northwest.
    Now, as you know, the plan applies only to Federal lands 
managed by the Forest Service and the BLM in the range of the 
northern spotted owl. It doesn't apply to state, private, or 
tribal lands. However, I should note that the plan has a 
significant effect on those lands in that, in assuming 
responsibility for protecting critical habitat--or I should say 
key habitats; critical habitat is a specific definition. Key 
habitat's for owl, murrelet, and other species, protecting 
critical watersheds. We then allowed private land owners, 
working with Fish and Wildlife Service and the National 
Fisheries Service to go about the business of developing 
habitat conservation plans, which have been extremely important 
for providing certainty for private land owners with regard to 
the future management of their lands. Plum Creek Timber 
Warehouse and other companies, including the State of 
Washington, have successfully completed habitat conservation 
plans, which will provide them greater certainty for the 
management of their lands and for the production of timber, 
both for their stock holders and, in the State of Washington, 
for the benefit of the beneficiaries of those lands.
    The Committee asked us to provide information on the costs 
incurred by local governments or private entities to comply 
with Fed-

eral requirements--I'll finish in one minute, Madam Chairman--I 
should point out, of course, the Northwest Forest Plan doesn't 
impose any additional requirements on local governments or 
private entities, which directly cause them to pay any cost. To 
the contrary, I would suggest that if there were no Forest 
Plan, if we were facing the gridlock that was faced a decade 
ago, there would only be negatives for the communities. The 
benefits of the Northwest Forest Plan were the clearing away of 
the gridlock that existed, the ability to move forward with 
Federal timber sales, and also, the benefits that I just 
mentioned that accrue to private land owners who could build 
HCP's tiered to the protection strategies that were 
incorporated in the President's Forest Plan for Federal lands.
    I want to emphasize two points, in closing, that I think 
are critically important, Madam Chairman. That is, this issue 
of owls and old growth is much larger than a focus on single 
species. That's the reason the President's Forest Plan dealt 
with a multitude of species. That's the reason that we used an 
ecosystem approach in trying to devise strategies to deal with 
the conundrum we faced in managing those resources for the 
long-term benefits of all Americans in the communities 
impacted. The Forest Plan was more than an owl plan. It was a 
plan for salmon, for watershed restoration, and for the 
economic assistance of communities that were in transition.
    The Administration, I believe, has lived up to its 
commitments on all aspects of the Forest Plan, meeting the 
probable sale quantities that were called for in the plan in 
terms of fiber production from Federal lands, providing 
economic assistance to the impacted communities, and providing 
other support to the counties that were necessary.
    I think the testimony that was presented in the previous 
panel highlighted the need for peer review and monitoring of 
science and the effects of management strategies. To get a good 
picture with regard to success of the President's Forest Plan, 
as well as long-term demographic trends for owls, peer review 
is critical, given the differences of opinion that might exist 
within the scientific community. And, that's why we went 
through a peer review process with the President's Forest Plan.
    And, obviously, monitoring is critical as well. However, to 
this point in time, our monitoring is inadequate to give us a 
sense of whether or not the owl is improving in its status or 
not, and more information is going to be needed. We do 
subscribe to adaptive----
    Mrs. Chenoweth. Mr. Lyons, I'm sorry there was a sentence I 
didn't hear very clearly. Right now your monitoring is 
inadequate to give what?
    Mr. Lyons. The information we glean from monitoring is 
inadequate to make a judgment with regard to whether or not the 
owl is improving in its status and whether or not changes in 
the President's Forest Plan could be made in response to the 
needs of the owl and other species. I'd suggest to the 
contrary, the concerns raised about salmonettes amplify the 
need for aquatic strategy that is part of the President's 
Forest Plan and the watershed restoration activities it calls 
for.
    We do believe in adaptive management, Madam Chairman. I 
think that was one of the basic tenets of Jack Ward Thomas' 
ten-

ure, and I think one of the legacies he that leaves. A focus on 
scientifically based approaches to resource stewardship. And, 
we should change management as we have new scientific 
information and as monitoring gives us some sense of where 
we're doing well and where we're not. Unfortunately, as I just 
mentioned, I don't think the data provided are adequate, thus 
far, to make those judgments, and so I would suggest that what 
we need to do is stay the course until we have the information 
necessary to make changes in management strategies as the 
science would dictate.
    I appreciate, again, this opportunity to appear before you 
this afternoon.
    [The prepared statement of Mr. Lyons may be found at end of 
hearing.]
    Mrs. Chenoweth. I know the President's plan is not just for 
the owl, it's for many other things, but the northern spotted 
owl is a listed species and in large part, because of the 
President's plan, we need to determine whether the assumptions 
and decisions made in that plan are producing the desired or 
expected results for the owl and, if not, why not.
    Are they, is the President's plan producing for the goal 
that we had with regards to restoring the viability of the 
population of the owl?
    Mr. Lyons. The honest answer to that, Madam Chairman, is 
time will tell. And I think that both representatives of the 
Fish and Wildlife Service and Dr. Raphael, can speak more 
clearly to that. The Northwest Forest Plan included, for the 
first time, a rather detailed and descriptive monitoring 
program to in fact address those questions.
    And we are implementing that monitoring program, but given 
the long lived nature of the owl and the slow change that 
occurs in the ecosystems of that region, we frankly need more 
information and more time to know whether or not we are 
achieving our goals with regard to the owl.
    Mrs. Chenoweth. So the assumptions and decisions made for 
that plan, we don't know if they are producing the desired 
results and so we are still stuck in the process. Right?
    Mr. Lyons. Well, I would characterize it as monitoring 
change. Over time that information will tell us whether or not 
we are achieving the success that we sought.
    We obviously believe that we are and that is why we are 
implementing the plan as prescribed.
    Mrs. Chenoweth. You mentioned the Northwest Economic 
Adjustment Initiative in your statement. What has happened to 
those communities most impacted by the owl litigation and the 
President's plan. Do you know?
    Mr. Lyons. On a community by community basis, I'd have to 
provide you more information. Information would indicate that 
the process that was set up in the CERT, the Community Economic 
Revitalization Team, that operates in the region has been quite 
successful in helping communities diversify their economies, 
helping them find resources to invest in infrastructure 
improvements, and in helping mill workers and others associated 
with the timber industry who were impacted retrain for other 
jobs or engage in other activities that may not be directly 
related to timber extraction but certainly are related to 
forest management.
    Mrs. Chenoweth. Secretary Lyons, you were here when 
Congressman Herger testified and he testified to the fact that 
they have had an enormous increase in welfare recipients and as 
high as 20 percent unemployment. Do you think that that really 
is something that we can point to as a success in the affected 
communities? The human habitat.
    Mr. Lyons. I guess my point, Madam Chairman, is that any 
job loss is a terrible loss. However, many things, many changes 
affecting that region are part of the dynamic that affects 
employment in the area. Mill closures can be a function of 
Federal timber supplies but also can be a function of changes 
in competition, changes in markets, and changes in other 
circumstances, and we've seen that throughout the region.
    I would not try and draw a correlation between the owl 
plan, if you will, the President's Forest Plan, and the segment 
that affects owls and employment levels because I think it has 
just been illustrated by the economic analysis that was done 
for the plan that was extremely detailed that it's difficult to 
draw those correlations.
    Overall, and this is obviously a general statement, but 
overall the economy in that region of the country is quite 
strong. What's driving it, though, is not the industries that 
have traditionally been critical to that region but other 
industries, communications, recreation, tourism. Growth in that 
region is tremendous.
    And so, one need to look at the entire picture to 
understand what impacts the Forest Plan has had on the region.
    Mrs. Chenoweth. Have the agencies been keeping track and 
also assessing the quality of the forest health?
    Mr. Lyons. I'd like Mr. Williams when he comes up to talk--
--
    Mrs. Chenoweth. Within the adoptive management plans?
    Mr. Lyons. [continuing] for him to talk about the specific 
methods that are being used to assess the changes.
    Mrs. Chenoweth. Secretary Lyons, let me ask you this, and 
then I know you have another meeting and I will be presenting 
more questions to you in writing.
    But we tend to, with these subjects that tend to get 
frustrating, we tend to deal with processes. And indeed you can 
imagine we are a bit frustrated because at the beginning of 
this whole process we heard a quote from a gentleman by Andy 
Stahl who said something like, and I will paraphrase the quote, 
something like if we did not have the owl, we would have had to 
have found another species to accomplish our goal.
    Knowing that, it makes us wonder if we can ever reach the 
goal of owl recovery. We have heard testimony that the 
population of the owl is indeed three times what it was first 
determined it should be, to establish a viable population.
    So, can you give us, Secretary Lyons, hard goals that we 
can adopt, not only management plans and so forth, but until we 
have those goals, the process just takes a life of its own and 
we never really reach, finish the job.
    Can you help us there?
    Mr. Lyons. Well, I'll try and address that question and I 
think you and I are strongly agree it's product, not process, 
that matters in the end, that matters in the lives of the 
people that we serve.
    Mrs. Chenoweth. Right. Well said.
    Mr. Lyons. That's what's critical. I can't speak to Mr. 
Stahl's motives or his comments, that is not my desire nor my 
aim.
    Our goal is to ensure the sustainability of all the 
resources, all the goods and services that come from the 
National forests so as to ensure that the communities that are 
dependent upon those National forests can in fact themselves be 
sustainable, can be diverse, and can be resilient as they move 
into the next century.
    Our goal is good solid land stewardship based on the best 
science available. As I indicated in my statement, the reason 
there is a need for peer review of studies, such as the 
demographic studies that were mentioned earlier is because 
there is disagreement about the adequacy of the data, the 
sufficiency of the data, and the findings.
    I think that is the way we need to get at these issues and 
we have discussed the role of science and policy many times in 
this room, you and I, and I think that's probably the best 
foundation we have to work from.
    I would suggest that that is the way to chart a course, 
recognizing every step of the way that the decisions we make 
with regard to the management of the National forests impact 
people's lives as well.
    Mrs. Chenoweth. But I would like to know what are the hard 
goals. I mean is it two times viable population? Three times? 
Does it mean certain types of patterns of growth in certain 
areas that we need to--what are the hard goals?
    Mr. Lyons. Well, those need to be set by the people who 
have expertise in the demographics of spotted owls and I don't 
so I have to subscribe to the recommendations that come out of 
that expertise based upon peer review, and that's what we are 
going to stand by.
    By statute, the Fish and Wildlife Service has the 
responsibility and the authority to help judge what is required 
to ensure that species are not listed as threatened or 
endangered and by law the Forest Service has the responsibility 
to maintain the viability of those species.
    So I think our scientific experts have a responsibility to 
work jointly to determine that.
    We obviously set some goals for a wide range of outputs and 
concerns with regard to the Forest Plan and believe that we set 
some goals for fiber production that were consistent with our 
legal requirements to maintain viability.
    We have lived by those fiber production goals, as well as 
the goals we set for the work we would do with other 
communities.
    I think that is the best answer I can give you given my 
limited expertise and I would suggest that perhaps other 
panelists might be able to address that question more directly.
    Mrs. Chenoweth. I do want to say that as a net result of 
the listing of the spotted owl as a threatened species, we've 
seen a shift in production to meet the market demand for wood 
products from the west to the east, and that has been a very 
interesting major shift. We have seen it decline in the west, 
we've seen small businesses who actually go in and compete in 
these timber sales, and they can compete to help keep prices 
down, and they are the small businesses that by and large 
cannot always afford to establish HCP's or don't even have the 
means to do so, and so they are not looked on favorably by the 
agencies.
    I think you, and us too, need to look at the overall 
picture of whether we are keeping the entire nation open? Are 
we establishing the goals that we both have for the national 
health of the forest? And are we, actually, helping the bigs 
get bigger and crushing the competitive nature that has always 
existed in the woods product industry.
    I think it is an interesting challenge that those of us who 
work in setting public policy need to deal with and I have 
never publicly or even privately addressed this with you as 
directly as I am today.
    But I feel very strongly about it. Do you have a comment?
    Mr. Lyons. I do, Madam Chairman. I believe it is critical 
that we look at the entire set of industries that are affected 
by the National forest system, not only the wood products 
industry but other industries that are impacted.
    I believe we need to look at trying to sustain a vibrant 
wood products industry, big and small, and being a good 
Democrat, I tend to focus on the small guys first, but that 
doesn't bias my decisions, I would assure you.
    But I believe it is critical that we recognize the role 
that we play in maintaining fiber for many communities and for 
many mills and do our best to address those.
    Secretary Glickman and I testified this morning before 
Chairman Regula of the Interior Appropriations Subcommittee on 
matters related to this subject and Secretary Glickman 
indicated that the resources, the full resources, of the 
Department of Agriculture, including not only those in Forest 
Service, but in Extension and the rural development agencies 
are working toward trying to assist communities in dealing with 
not only change but in sustaining their economies and their 
communities and that is a concern obviously not just in the 
Northwest but, as you know, in the Columbia River basin as 
well.
    I would join you in efforts to trying to ensure that that 
occurs and commit to work with you to achieve that goal.
    Mrs. Chenoweth. Thank you very much.
    Mr. Lyons. Thank you.
    Mrs. Chenoweth. And I hope you make your appointment in 
time. Thank you.
    Mr. Lyons. Thank you.
    Mrs. Chenoweth. The Chair recognizes the next panel, 
although I guess we'll hear simply, not simply, but only from 
Gerry Jackson, Assistant Director, Ecological Services, of the 
Fish and Wildlife Service, U.S. Department of the Interior.
    With Mr. Jackson is Bob Williams, who is from my neck of 
the woods, Regional Forester, Pacific Northwest Region, Forest 
Service, USDA in Portland, OR; Martin Raphael, Ph.D., Chief 
Research Biologist, Pacific Northwest Region, Forest Services, 
U.S. Department of Agriculture, Olympia, WA; and David Wesley, 
Assistant Re-

gional Director, Ecological Services, Fish and Wildlife 
Service, U.S. Department of Interior, Portland, OR.
    Gentlemen, I wonder if you might rise and raise your hand 
to the square. Your right hand.
    [Witnesses sworn.]
    Mrs. Chenoweth. Mr. Jackson.

  STATEMENT OF GERRY JACKSON, ASSISTANT DIRECTOR, ECOLOGICAL 
  SERVICES, FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT OF THE 
    INTERIOR, WASHINGTON, DC; ACCOMPANIED BY DAVID WESLEY, 
  ASSISTANT REGIONAL DIRECTOR, ECOLOGICAL SERVICES, FISH AND 
 WILDLIFE SERVICE, U.S. DEPARTMENT OF THE INTERIOR, PORTLAND, 
  OREGON; BOB WILLIAMS, REGIONAL FORESTER, PACIFIC NORTHWEST 
    REGION, FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
  PORTLAND, OREGON; AND MARTIN RAPHAEL, PH.D., CHIEF RESEARCH 
  BIOLOGIST, PACIFIC NORTHWEST REGION, FOREST SERVICES, U.S. 
         DEPARTMENT OF AGRICULTURE, OLYMPIA, WASHINGTON

    Mr. Jackson. Thank you, Madam Chairman. Thank you for this 
opportunity to discuss the status of the northern spotted owl 
and the President's Northwest Forest Plan.
    I have submitted my written statement for the record. 
Therefore, today I would just like to highlight the success 
story that we believe is evolving in the Pacific Northwest as 
it relates to the northern spotted owl.
    Let me tell you why I consider this an evolving success 
story.
    When the spotted owl was listed as a threatened species, 
there was a great uproar, there were charges that unemployment 
would skyrocket, and the timber industry would be destroyed. 
Gridlock soon ensued and tensions were high.
    As you now, President Clinton convened a summit in 
Portland, OR, in April 1993, to discuss this problem. He 
subsequently asked the Federal agencies to develop a plan that 
would be scientifically based, protect the environment, and 
support a sustainable timber economy.
    One year later, a plan was produced, a record of decision 
was issued and implementation commenced. Because of this 
thoughtful planning process the predicted crisis did not occur 
and today, for example, Oregon is still the nation's top timber 
producer, the jobless rate is less than 5 percent, new high-
tech industries are drawn to the region, and the robust economy 
is moving away from one dependent upon resource extraction to 
one that is more diverse and healthy.
    In a New York Times article published in 1994, Mayor Bill 
Morrisette of Springfield, OR, was quoted as saying, and I 
quote, Owls versus jobs was just plain false. What we've got 
here is quality of life.
    Mr. Mike Burrell, a timber mill owner in Medford, OR, who 
charged that the listing of the owl would create another 
Appalachia said, we had an awful lot of new industry and that 
surprised me.
    He said people moving to the area are bringing jobs with 
them.
    These things did not happen by accident. This 
administration took a long, hard look at what needed to be done 
to help the region through these changes.
    Many of the reforms we in the Fish and Wildlife Service 
have made to the Endangered Species Act, such as streamlining 
of the consultation process of the Federal agencies, and the 
development of habitat conservation plans, with no surprises 
and safe harbor agreements for States and private property 
owners have been very instrumental in helping communities cope 
with the impact of the listing of the owl.
    With the help of these reforms, landowners of all sizes are 
now managing their lands with the conservation of species in 
mind. For example, Plum Creek Timber Co. is managing their 
lands to compliment the Forest Plan and enhancing their land 
for a variety of species, including the spotted owl, the 
grizzly bear, and the marbled murrelet. Their HCP maintains 
current levels of old-growth forest and ensures that all 
species have adequate habitat.
    In exchange, Plum Creek continues to manage their land for 
timber production with assurances from us that no additional 
regulatory restrictions will be placed upon them for the 
species covered by that agreement.
    Rick Holly, president of Plum Creek, said, again, I quote, 
this plan will serve as an example of how to protect the 
diversity and the health of ecosystems while giving businesses 
that rely on natural resources the predictability that they 
need to serve the important interests of their employees, 
communities, customers, and shareholders.
    Today there are 13 HCP's that cover 3.3 million acres in 
the range of the spotted owl. We are also in the process of 
developing a rule under section 4(d) of the Endangered Species 
Act that will provide relief for take of northern spotted owls 
for thousands of private landowners. And we expect to finalize 
the 4(d) rule this summer.
    We have made great strides in the way the Federal and the 
State government agencies have worked with each other over the 
years to achieve the goals of ecological and economic health.
    A strategy has been implemented to protect the owl and its 
habitat as well as continue to support the timber programs of 
the Federal and the State agencies and private landowners.
    Working together, we have reduced resource conflicts and, 
in many instances, we have avoided most problems by working 
collaboratively.
    We have cut the consultation time line, for example, under 
the Endangered Species Act by more than half.
    The Forest Plan provides a sound framework for the recovery 
of the northern spotted owl. But it will take time. Without the 
Forest Plan, the decline in old-growth habitat would have 
continued until the owl disappeared as well as many timber-
related jobs.
    The spotted owl did not become threatened with endangerment 
overnight.
    And it will not recover overnight.
    Based on the best available science at this time, the owl 
population, throughout its range, continues to decline due to 
loss of habitat. But, over the next 50 years, the spotted owl 
habitat har-

vested under the Forest Plan is expected to be replaced by 
habitat regenerating within protected reserves.
    As habitat inside the reserves improves, the amount of 
habitat rangewide, and therefore owl populations, will 
stabilize and eventually increase.
    Thus, Madam Chairman, the success story is in the making, 
proving that when we join together to create a long-term plan 
that will protect threatened species and the economy in the 
region, we have a situation where everyone wins.
    Again, I thank you for the opportunity to present my 
testimony and we would be pleased to answer any questions you 
or any other members of the Committee may have.
    [The prepared statement of Mr. Jackson may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Jackson, and I 
want to thank all of the gentlemen for joining Mr. Jackson at 
the witness table.
    I have several questions that I do want to ask you.
    Based on Mr. Herger's testimony, you heard his testimony 
that unemployment has reached as high as 20 percent, and more 
people are having to rely on welfare, and it's put an undue 
burden on the school systems with regards to having to expend 
more money to provide meals for children and so forth.
    Don't you feel that that is pretty clear demonstration that 
this program has, indeed, been hard on communities that, while 
it may not have created Appalachia, in Medford, OR, but it has 
created some real hardship on some counties.
    Mr. Jackson Madam Chairman, I'd agree with that assessment. 
I think the facts do speak to that. I think, however, that 
overall I think it's a fair statement to say there is a very 
robust economy in the Northwest.
    There are, as was mentioned previously, Secretary Lyons in 
fact mentioned that there are many activities or influences 
that may attribute to that.
    I guess what I would like to say is that there was a period 
of time at the rate that habitat was being harvested, at the 
market itself, that timber jobs were probably subject to 
decline and the President's Forest Plan is an attempt to try to 
stabilize not only the ecosystem within the range of the 
spotted owl but also to provide for a sustainable yield of 
timber and other products from our force, to find that balance 
between healthy environment and healthy economy.
    Mrs. Chenoweth. Do you know in the original studies that 
led to the listing of the threatened species in June 1990, to 
what degree were the studies done? By that, I mean, were the 
studies conducted originally on second-growth timber? And, 
second, were they conducted across the entire range of the 
listing, the habitat?
    I had seen some maps once that showed that studies have 
been done very close to roads which would not indicate that 
there was a real accurate count of the numbers of owls in those 
early years.
    Can anyone address that for me?
    Mr. Jackson. Yes, I'll let my colleagues from the Forest 
Service add to what I say, but when we listed the owl in 1990, 
it was based, again, on the best available scientific 
information at the time. I'm not aware that the counts that 
were made at that time were made in the vicinity of roads, but 
what I would like to say is that the issue was not so much 
numbers of owls, and it was raised previously here.
    The owl numbers that we had in 1990 are much lower than the 
owl numbers that we count today, but what is important is the 
aspect of population trend. And in 1990, and leading up to 
that, we were seeing a rapidly declining habitat base and we 
had information that was indicating that population trends of 
owls were declining and in addition to that, and, again, when 
we list a species it is, again, based on the best available 
biological and scientific information.
    And so, all of the information that was available to us at 
that time indicated that indeed the species was in trouble and 
needed to be protected by the Endangered Species Act.
    Mrs. Chenoweth. Mr. Jackson, can you tell me if, in those 
early studies, they also did the same kind of analysis on 
second-growth timber? The maps that I looked at were actually 
Fish and Wildlife Service maps and it did indicate sightings 
that were next to, it didn't necessarily mean freeways or State 
highways, but sightings that were next to roads where they 
could access the back country by vehicle.
    So, were there studies done originally also in the second 
growth areas?
    Mr. Jackson. Madam Chairman, if you don't mind, I would 
like to maybe pass that question to Dr. Raphael who, at that 
time, was involved in some of those studies and maybe could 
elucidate a little more.
    Mrs. Chenoweth. Dr. Raphael?
    Dr. Raphael. Thank you. Much of the primary information on 
the demographics of the northern spotted owl that went into the 
listing process was from five of these large demographic study 
areas that had accumulated enough data at the time to permit a 
credible analysis.
    Those five were scattered in various parts of the owl's 
range and almost all of them were on managed forest lands, on 
lands managed by the Forest Service or the Bureau of Land 
Management. Because they are in these managed landscapes, there 
was a mixture, probably on each of those study areas, of both 
second-growth and mature forests. And because they are managed 
landscapes, there certainly was a road network in each of the 
study areas that would allow the extraction of the harvest that 
had taken place in the past.
    Mrs. Chenoweth. I do want to say, for the record, how much 
I appreciate the companies who have established HCP's. They are 
also the companies that are beginning to help inform the public 
in the manner that adds to the educational challenge that we 
have ahead of us together to bring the American people into 
this problem for, hopefully, a solution.
    I believe that when we bring the American people in, pull 
everybody together, pulling the same load, that we can actually 
accomplish a lot more with a lot less frustration on your part 
and our part too. So I do, for the record, want to express my 
gratitude for companies like Plum Creek and Weyerhauser and the 
larger companies who have established HCP's.
    But in the Pacific Northwest there is some estimate of how 
much private land will be permanently preserved for the 
protection of various endangered species, including the spotted 
owl. Isn't that the case?
    Mr. Jackson. If I heard you correctly, you said a certain 
amount of habitat would be preserved for the spotted owl and 
that is true.
    But let me also mention that virtually every habitat 
conservation plan that we now negotiate with the companies, we 
have expanded also beyond looking at just spotted owls too. We 
are looking at multispecies habitat conservation plans. And so 
oftentimes it is not so much as a particular amount of acreage 
that is sort of set aside in perpetuity. What we are trying to 
do is promote management of the landscape and so in many of 
these HCP's, you will actually see elements of the landscape 
moving around. In other words, there will be old-growth habitat 
that will be in different places at different times over 
extended periods of time.
    So that owls, marble murrelets, and other species can 
essentially move about that landscape, thus allowing those 
timber companies to harvest timber and other products.
    Mrs. Chenoweth. So, actually, we can see over a period of 
time the HCP's actually moving? I mean there may an HCP located 
in a certain area for say 30 years and then it moves as the 
landscape dynamics have changed. Is that correct?
    Mr. Jackson. Well, what I was referring to is mostly within 
a given habitat conservation plan, dependent upon, and each one 
of these is different, and each one is case specific, but, what 
I'm saying is that, maybe the habitat management within that 
footprint of that land ownership is shifting over a period of 
time so that that habitat remains productive and protective for 
those species who depend on it, but at the same time, allowing 
a certain amount of harvest to come off that land.
    Mrs. Chenoweth. Off of the HCP's.
    Mr. Jackson. Correct.
    Mrs. Chenoweth. Yes. That's good.
    In the East, there are a number of forest-dependent species 
that are listed as endangered including the Indiana bat and the 
Delmarva fox squirrel.
    How many HCP's have you completed for those endangered 
species and how much land will be set aside as habitat for 
those species?
    Mr. Jackson. On the Delmarva fox squirrel we are actually 
still in negotiation with various land owners and, again, the 
habitat conservation process is a applicant-driven process. We 
promote that type of management scheme.
    On the Indiana bat, a similar situation. I can't tell you 
exactly how many. We don't have any that I am aware of for 
those species at this time.
    Some landowners have indicated that they are interested in 
developing a habitat conservation plan and oftentimes this is 
the normal process where we will engage in a certain amount of 
dialog educating the landowners, property owners, as to what is 
a habitat conservation plan and what will be the expectations 
and so on and so there is a certain amount of time that goes on 
before they actually apply for a permit and at that time, and 
the big difference, for example, in how we're doing business 
now versus 5 years ago, is that we are much more proactive now 
in working with landowners.
    Five years ago, if you looked nationwide at the number of 
habitat conservation plans that we had, we probably had about a 
dozen nationwide and that was since 1983.
    Just in the last 5 years, we have completed well over 200 
habitat conservation plans nationwide, in fact the last number 
I saw was 225 completed habitat conservation plans.
    We're actively involved in negotiating on somewhere in the 
neighborhood of 150-200 plans now, at this point in time.
    It is a huge success story. You've probably heard from many 
of the private landowners. We have very recently published a 
no-surprises rule which basically says a deal is a deal, that 
we are not coming back for another bite of the apple.
    We have instituted what we call a safe harbor program which 
is very applicable in the Northwest so that landowners do not 
have to be fearful of owls or other species moving onto their 
habitat. And a great example of that is in the Northwest where 
many private landowners were concerned that at some point in 
time they were going to wake up and an owl was going to be on 
their property and they were terrified that that then would in 
some way impede their ability to manage that land and so, while 
it was happening, and I spent a lot of time in the Northwest 
meeting with landowners, a lot of small landowners, and they 
will tell you that they were harvesting timber at 45 years 
because they were afraid to wait any further.
    While obviously that wasn't doing the species any good so 
we really had to get creative in terms of finding ways to 
provide those landowners with those types of incentives.
    For example now, if the landowner voluntarily agrees to 
engage in a conservation plan with us, now landowner may allow 
his trees to grow, 55, 65, 75, 80 years, whatever they want. If 
an endangered species moves in on them, there are no additional 
restrictions. All we're asking that they maintain that certain 
baseline.
    We're seeing a lot of this in the East. The Delmarva fox 
squirrel habitat, the Indiana bat habitat has tremendous 
potential for that, tremendous success stories in the Southeast 
with the red cockaded woodpecker. In fact that is where we 
really started applying these safe harbor type concepts and 
some of these now innovative reforms.
    And so, I understand there is a lot of concern, maybe 
confusion over why we don't see a lot of habitat conservation 
plans in the East versus the West, and quite frankly we are 
trying to promote more of those in the East but, again, it is 
an applicant-driven process. We're working with Champion, we're 
working with Georgia-Pacific, we're working with a lot of the 
developers in Florida, for example, sea turtles, other species, 
to do that.
    Mrs. Chenoweth. Let me ask you, Mr. Jackson, the criteria 
that you have established in your contracts with private 
ownership in HCP's, can we logically apply those same criteria 
to the public lands?
    Mr. Jackson. To the public?
    Mrs. Chenoweth. To the public lands. Have a major HCP on 
the public lands.
    Mr. Jackson. Well, habitat conservation plans, by law, are 
geared toward private lands. And the equivalent to that with 
Federal lands is through the section 7 consultation process. 
And in many ways, not in a technical sense, you could look at 
the Northwest Forest Plan as, and I have to be careful here, 
like a small HCP, a small Habitat Conservation Plan for the 
Federal lands. Because it has many of the same types of 
elements in it.
    But the straight answer to your question is that habitat 
conservation plans are geared toward the private landowners.
    Mrs. Chenoweth. What I'm driving at, again, are hard 
targets. I mean when is enough, enough. What would you say, 
with regards to the population of the owl, when is that enough? 
I mean we've heard testimony today that the owl population has 
reached three to four times the amount needed to establish a 
viable population base.
    In terms of landscape patterns, old growth versus open 
areas for prey-based habitat. When is, what are the hard 
targets? What are we working for specifically? And don't, 
please try not to answer me with just a process.
    Mr. Jackson. Well, I'm going to try to give you a real 
straight answer because this would apply to many of our 
species. What we are trying to achieve, basically, are well-
distributed populations throughout the range of a species. And 
we're trying to establish a stable or increasing population. 
For a period of time where we feel that then we can withdraw 
the protections that are in place because of the listing, we 
would then put into place a monitoring program that then would 
keep a finger on the pulse of those population trends over a 
period of time to make sure that we didn't, for some reason, 
take a backslide.
    The demographic, or population trend data, is critical to 
that process. We have a draft recovery plan. It was mentioned 
earlier as to why we don't have a final recovery plan. A 
recovery plan is optional. If the Secretary determines that 
there are other plans in place, and essentially we have made 
the decision at least at this point that with the President's 
Forest Plan, habitat conservation plans, 4(d) rule data that 
will come to us from these population trend studies, that 
package should tell us when we've achieved success.
    As I understand it, there is an interagency effort ongoing 
right now to assess population trend data. They will be meeting 
sometime at the end of this year and probably reporting out at 
the beginning of next year. I also believe it is an open 
process to industry. I know industry biologists have 
participated in the past.
    And I'll just use this as an opportunity to say that we 
welcome, we welcome scientific information and we encourage 
industry to come forward and the universities, and anybody who 
has good solid scientific peer review information for us to use 
because we have an open-door policy when it comes to using the 
best available science and we welcome it.
    Mrs. Chenoweth. Mr. Jackson, you've also heard it testified 
to that the agency models do not reflect the cyclical changes 
in the population of the owl due to natural conditions such as 
wet springs.
    Do you, in your opinion, feel that the model is flexible 
enough to reflect those things or are you looking to continue 
to improve that?
    Mr. Jackson. Madam Chairman, I am going to defer again to 
Dr. Raphael on that question, if you don't mind.
    Dr. Raphael. The models that we're using to project the 
past population trends of the owl rely on data on the 
productivity of the owl which is accumulating numbers of young 
that are produced every year in all of the sites that are being 
monitored and this is thousands of sites.
    So it does take into account this year-to-year variation 
which is a fact of the owl's life. Reproduction does vary with 
things like climate.
    Those models take into account not only the year-to-year 
variation in the numbers of young produced, but also, more 
importantly, year-to-year variation in the survival rates of 
the adults and it's the survival rates of the adults that 
really determines with far more importance how well that 
population is doing at the time.
    But the models do take into account the kind of variation 
that the previous panel mentioned.
    Mrs. Chenoweth. Let me ask you, Dr. Raphael, or Mr. 
Jackson, if in the best of all worlds, we could show that 
throughout the landscape of where the owl is, the impact of the 
spotted owl is applied, if we could show that there has been an 
increase in the population, if we could show that there is a 
pattern of landscape that is conducive to the stable viability 
of the population of the owl, should that not be sufficient to 
delist the owl as threatened?
    Mr. Jackson. I'll answer that question. If we can achieve a 
stable population or an increasing population over time, and 
the habitat conditions are such and the regulatory situation is 
such that we can begin to recover that owl and delist that owl, 
for sure.
    That is our goal, the goal of the Endangered Species Act is 
to recover species and that is foremost in our thoughts and you 
are exactly right.
    Mrs. Chenoweth. Since the owl has been originally listed, 
we thought the owl could only survive in old-growth forests and 
now the habitat has spread, so we know that the pattern of 
landscape lends itself to a continuing population of the 
spotted owl, is that not true?
    Mr. Jackson. I think the science is still solid in saying 
that an owl is an old-growth dependent species. But, for sure, 
owls do use second-growth habitat. They don't necessarily use 
it for nesting, however they may use it for dispersal. They may 
use it for feeding. They may use it for other aspects of their 
life cycle. And we're learning a lot. We also know that owl 
populations in Northern California, for example, and the 
habitat use is different than those in Oregon and those in 
Washington.
    That I agree, that is true.
    Mrs. Chenoweth. And is it not true with regards to the 
impact of fire in the landscape, that there is likely to be 
more fire in the old-growth timber that is not managed, than in 
the second-growth timber that is managed. So aren't we putting 
at more risk the nesting habitat of the spotted owl by not 
managing?
    Mr. Jackson. Well, in a minute, I'll defer over to my 
Forest Service colleagues, but----
    Mrs. Chenoweth. All right. He's gotten off awful easy over 
there.
    Mr. Jackson. Really. Suffice it to say, I guess, that, you 
know, we work very collaboratively with the Forest Service and 
with the Bureau of Land Management and, dependent upon the type 
of activity, it is not something that, we're not opposed to it 
for sure. Obviously we want to maintain the right forest 
conditions, whatever they are. And that is something that from 
a forest management standpoint, I think maybe the Forest 
Service might want to add to that.
    Mrs. Chenoweth. Mr. Williams?
    Mr. Williams. A large portion of the spotted owl habitat is 
on what we call the west side and we don't have severe fire 
situations there so in the bulk of the area that we're talking 
about we're not faced with the problem you've mentioned. 
However we do have some spotted owl habitat on the east side of 
the Cascades, but traditionally we're having more problems 
there because of the past exclusion of fire and thickening of 
stands, which can be either old growth or young stands. We get 
a lot of ingrowth of species that normally would have burned 
had we just let fire run its course.
    So we do know we have an increasing fire problem but it is 
not directly related to whether it's old growth or a second-
growth stand.
    Mrs. Chenoweth. I see.
    Dr. Raphael. May I add to something to that?
    Mrs. Chenoweth. Yes.
    Dr. Raphael. One of the features of the Northwest Forest 
Plan is a recognition that there are higher risks for fire on 
those east side forests that Mr. Williams just mentioned. And 
so there are provisions in the plan to allow for management 
within those stands to reduce the risk for fire by managing 
fuel loads or managing forest structures in other ways to try 
to lower the risk of those catastrophic fires.
    Mrs. Chenoweth. Mr. Williams, let me ask you. We were told 
on numerous occasions that the Clinton Forest Plan for the 
Northwest had a built-in mechanism through study and experiment 
with new forest management techniques. How many of what are 
called adaptive management plans have been undertaken? And how 
many have been submitted to Fish and Wildlife Service for their 
approval? And how long has the approval process taken?
    Mr. Williams. The plans for the 10 adaptive management 
areas, we've completed plans for eight of those. The plans go 
through an interagency review; it's not strictly a Fish and 
Wildlife Service review, but the Regional Ecosystem Office 
reviews the plans with an interagency team of people.
    I don't have the figures here on whether all eight of those 
have, in fact, been approved, but I believe they have. At least 
eight of them have been done. We have over 300 research and 
monitoring projects under way within those adaptive management 
areas, and we are in the process of planning additional actual 
manipulation of habitat within those areas.
    Mrs. Chenoweth. Mr. Williams, from the outside looking in, 
it seems that the President's Forest Plan is not meeting all of 
its goals.
    It hasn't come close to producing a billion board feet of 
timber and it has not used the adaptive management process as 
was intended.
    It has, for all practical purposes, quit the monitoring of 
the owl, and the Forest Service continues to manage by legal 
threat from the environmental community. How can we get some 
common sense back into this process so we can together reach 
these goals?
    Mr. Williams. I'm not sure that I can respond to all of 
those points. As far as the timber program----
    Mrs. Chenoweth. Let me, let me say that I think you 
probably should if you can.
    Mr. Williams. I will do the best that I can. As far as the 
timber program, we've reported in testimony before that it 
would take a period of time to increase our production because 
we were starting from essentially a standstill position. We 
have done that and in 1997 the Forest Service offering of 
timber sales, was the amount that we had established as our 
probable sale quantity.
    We had 694 or 696 million board feet, I believe was the 
Probable Sale Qualty and we produced 705 million borad feet. We 
did that in the face of having to deal with the recision bill, 
salvage bill riders, that we had 2 years ago which actually 
absorbed some of the material, some of the sales that we had 
prepared for use in meeting the targets of the Northwest plan. 
That was a considerable setback for us, but we did overcome 
that as we went forward.
    As far as the adaptive management areas, as I pointed out 
we have eight of the 10 plans done. We put our priority on 
trying to meet the timber sale program. That was clearly the 
message that we were being given as far as the things that were 
most important to the public. We first went out trying to get 
on top of meeting the goals, which included doing watershed 
assessment and we've been able to do the watershed assessments 
and move up to the point now where we're at a stable level of 
flow of timber sales. So I think from a priority standpoint we 
did the important things first and now we're moving into the 
adaptive management areas.
    I will, in addition, point out that in some of the late 
successional reserves, we have established projects on those 
areas where it appeared that thinning or other kinds of 
treatments would actually help enhance and move us toward an 
old-growth condition that would benefit the old-growth 
dependent species.
    So I feel that we have moved forward and are doing a good 
job of implementing the intent of the Northwest Forest Plan.
    I hope that answers all of the points that you made, ma'am.
    Mrs. Chenoweth. It didn't, but I will ask some questions in 
writing.
    Mr. Williams. I'll be glad to try again.
    Dr. Raphael. Could I add one more point to that?
    Mrs. Chenoweth. Yes.
    Dr. Raphael. I think the items you mentioned had to do with 
monitoring.
    Mrs. Chenoweth. Yes.
    Dr. Raphael. The fact is we have established a very 
comprehensive monitoring plan. That's gone forward over the 
last couple of years in the planning effort and now it is ready 
for implementation. It's a very strong plan dedicated to the 
spotted owl but also to some of the other species that are of 
concern, the marbled murrelet, late successional, old-growth 
forest systems.
    That plan is under way and it is being very strongly 
supported and it should produce results over the next years.
    Mrs. Chenoweth. Thank you.
    I wanted also to ask Mr. Williams what percentage of saw 
timber did the plan say it would provide?
    Mr. Williams. The plan predicted a given amount of PSQ, 
probable sale quantity, which was recognized as an estimate 
that would have to be adjusted as Forest Plans were adjusted, 
and then it estimated there could be as much as 10 percent 
other material in addition to the saw timber, so the initial 
estimates were saw timber estimates with simply an estimate 
that it could be as much as 10 percent in addition.
    Mrs. Chenoweth. How much of the timber volume offered out 
of that plan was saw timber?
    Mr. Williams. I don't have that figure, I believe it was in 
the neighborhood of about 85 percent.
    Mrs. Chenoweth. OK.
    Mr. Williams. We can supply that for the Committee.
    Mrs. Chenoweth. Would you?
    Mr. Williams. Yes, we can.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. All right.
    Mr. Wesley. Do you have anything you'd like to add for the 
record?
    Mr. Wesley. No, not at this time, thank you very much.
    Mrs. Chenoweth. I want to ask you, Mr. Jackson, what will 
the monitoring plan that we've been talking about actually 
measure, and let me ask you my second question so it will frame 
it better. Will it look at the relationship between the owl 
populations and management activities?
    Mr. Jackson. I'd say the answer is a simple yes. It's 
intended, I guess what I'll say about monitoring in general. If 
you don't know where you're going, any road will get you there 
and it's one of the lessons that we, for example, in the Fish 
and Wildlife Service, one of the lessons that we have learned 
is that monitoring is fundamental to making good decisions and 
one of the goals of monitoring for the Forest Plan is to one 
day be able to develop those correlations between habitat and 
species' health in terms of population trends, so that we're 
not having to count every species or to measure their 
population trends over time so the monitoring is basically an 
attempt to kind of check the pulse of the health of that system 
and it is, absolutely, critical to not only the implementation 
of the plan, but also the effectiveness of the plan.
    Mrs. Chenoweth. OK. Gentlemen, Mr. Williams, do you have 
anything you would like to add for the record?
    Mr. Williams If I could add on the monitoring point, there 
are essentially three kinds of monitoring. We're focusing on 
two of them at the front end. The first one is implementation 
monitoring. I'll just offer a brief comment on that and then 
suggest that Dr. Raphael could comment on the effectiveness 
monitoring.
    Implementation is a rather simple straightforward check to 
see if we're doing what the plan says we should do. We 
initiated that in 1996, again did it in 1997, and are planning 
to continue it on into 1998.
    We did a statistical sample, looked at 40 timber sales in 
1996, in 1997 we looked at 40 more timber sales. We also looked 
at several road projects and several rehabilitation projects to 
ask the question have we done what the standards and guidelines 
in the plan say we should do.
    In each of those cases we have found anywhere from 96 to 
100 percent completion of those standards and guidelines. In 
the few cases where we did not, usually it was missing it by a 
few feet. Where we were to have a buffer of 150 feet, we maybe 
had 130 because of some reason that needed to change it.
    So essentially we're very close to 100 percent which we 
think is, for all practical purposes, full implementation of 
the standards and guidelines and we're very pleased with it.
    Perhaps Dr. Raphael could add a little bit on the 
effectiveness monitoring.
    Mrs. Chenoweth. Dr. Raphael.
    Dr. Raphael. Effectiveness monitoring really is a test to 
see if the plan is having a desired effect. And the desired 
effect, in this case, in relation to the spotted owl, is 
whether the owl is achieving a stable or perhaps increasing 
population.
    For the monitoring, effective monitoring for the spotted 
owl, there are two major components. One is to continue these 
demographic studies so we can look at population trends in the 
owl by marking individuals on these large study areas, 
evaluating their survival from year to year, and looking at 
numbers of young produced and then that data, using some 
models, to determine whether the population is stable.
    The other component is tracking the amount and the 
distribution of habitat for the owl. That one will be based in 
part on large-scale satellite-based images, but we'll need to 
do a lot of work to determine which components of those 
satellite images really define suitable spotted owl habitat.
    Collecting that information, we'll be looking for all 
sources of data and studies that can contribute to our 
understanding of spotted owl habitat which you know has changed 
over the past several years as Larry Irwin and others have 
noted earlier.
    So, we'll look at the habitat data and we'll try to link 
the habitat data to the survival and productivity of the owls. 
It turns out we can predict survival and productivity from 
measurements of the distribution and abundance of habitat, then 
we'll shift to a reliance on periodic assessment of habitat 
conditions and ease off on the necessity to band and mark owls 
every----
    If models don't work, then we'll continue with the 
demographic studies and use those as the backbone of the 
monitoring process.
    Mrs. Chenoweth. Interesting.
    Mr. Jackson, to you have anything to add to the record?
    Mr. Jackson. I would just say again, just reiterating that 
going back to the earlier question of when will we have 
achieved success in the recovery of the owl. I think that is 
just a great example of how we will use that monitoring data to 
help us get to that point.
    Otherwise, we'll never know and we have to look at it in 
terms of both habitat and the population trend and if we're 
successful in developing our models, we'll get to a point in 
time, hopefully sooner rather than later, where we can then 
just start looking at habitat correlations to make those types 
of determinations which will be a much more cost-effective, 
cost-efficient process.
    Mrs. Chenoweth. Mr. Wesley, do you have anything to add to 
the record?
    Mr. Wesley. No. I think Gerry covered it, thank you.
    Mrs. Chenoweth. You are the most reluctant witness we have 
had in a long time.
    [Laughter.]
    Mrs. Chenoweth. But I want to thank you gentlemen very much 
for your time and the effort that you have made to be here and 
to add the valuable information that you have to the record.
    We will have additional questions we will be submitting in 
writing and the record will remain open for 10 days, so if you 
wish to supplement your testimony, you are welcome to do so.
    With that, I want to say you're dismissed and I thank you, 
again, very much.
    [The information referred to may be found at end of 
hearing.]
    I would like to call back our second panel, Dr. Mark Boyce, 
Dr. Robert Taylor, Dr. Larry Irwin, and Sean Cosgrove.
    Gentlemen, as you know, you are still under oath and I 
appreciate your waiting.
    I have a question first for Dr. Irwin.
    I have a photo here from an area within the Columbia River 
Basin that was provided to us by CH2M HILL in some previous 
testimony and it shows the extent of riparian corridors and how 
little of the ridge top is actually outside of the corridors. 
So under the Interior Columbia Basin ecosystem management plan, 
as you can see, the areas that are tied together by the white 
marks between the red dotted lines are the areas that fall 
under riparian zones and are considered the riparian corridors.
    Are there similar conditions in the areas that you have 
studied, Dr. Irwin?
    Dr. Irwin. It's very interesting that you present that 
picture there. It looks very much like some of the study areas 
that we have on the eastern slope of the Cascades in central 
Washington for our spotted owl work. And we find in general, in 
pictures like that, we see evidence of previous fires, we see 
evidence of some of the forest health problems associated with 
insect pests and forest diseases, which I can see in that 
picture from here. We can also see evidence of previous timber 
harvesting. It looks like, perhaps, some selective harvesting 
has occurred.
    Where we find owls in a landscape like that is right within 
those riparian corridors that you describe. Particularly where 
they put their nests, toward the lower end of the slopes and 
when they are traveling at night to search for prey they spend 
a great deal of time in those riparian zones for foraging as 
well.
    Mrs. Chenoweth. Basically the owls prey base is primarily 
what?
    Dr. Irwin. Like all of us, I suppose to make a living.
    Mrs. Chenoweth. It's what?
    Dr. Irwin. To make a living, I suppose.
    Mrs. Chenoweth. What does it usually prey on? Rodents?
    Dr. Irwin. In those landscapes, it feeds on northern flying 
squirrels, primarily, and sometimes a wood rat that lives on 
the ground or part of the time in trees.
    Mrs. Chenoweth. Dr. Taylor, have you had a chance to look 
at this?
    Dr. Taylor. Yes, I have.
    Mrs. Chenoweth. Do you have any comment to make?
    Dr. Taylor. I don't really think it has much to say about 
owls, to be honest.
    It seems to me that owls, like all predators, are highly 
tuned in to where their prey live. This is a forest owl and it 
needs forest and I don't think there's any denying that.
    But having said that, the key element of the natural 
history is where are its prey. And that is going to depend upon 
where you are.
    Northern flying squirrels are very important up in the 
areas where Dr. Irwin works. In the areas where I work, 
overwhelming prey is the dusky footed wood rat. The dusky 
footed wooded rat does not like old growth forests.
    Mrs. Chenoweth. Dr. Boyce? Would you like to comment on 
what this photo shows?
    Dr. Boyce. I don't really don't have any comment about that 
photo.
    Mrs. Chenoweth. All right. Mr. Cosgrove? Do you have any 
comment?
    Mr. Cosgrove. No, thank you.
    Mrs. Chenoweth. OK. Dr. Irwin, would you distinguish the 
comments Dr. Taylor made from your comments, primarily by you 
were addressing one type of prey while Dr. Taylor obviously was 
addressing another.
    Dr. Irwin. Definitely, that does seem to be the case. As we 
grade from Washington on into California, and particularly in 
mixed coniferous forests we see a much more preponderance of 
the wood rat in the prey base for the spotted owl.
    Mrs. Chenoweth. I see. Thank you very much.
    Dr. Taylor, to what extent does fire threaten the future of 
the northern spotted owl in California, and does fire pose a 
greater or lesser threat to owl habitat than logging?
    Dr. Taylor. Fire, as it historically has affected these 
forests, has been a frequently appearing phenomenon that came 
in and cleared out underbrush; maybe, every once in a while, 
flared up into the canopy and opened a, cleared out a patch of 
larger trees. And then went on.
    That kind of fire, I think, would be good for the owl, I 
think in general. It would provide, in California it would 
provide openings, it would allow some regeneration of hardwoods 
in temporary clearings that would provide food for prey 
species.
    Unfortunately the situation we're in in much of California 
now is that we've protected these forests from fires for so 
many years that they are choked with fuels and fires that start 
now all too frequently get into the canopy and cause fire 
storms, complete destruction of the forest, and these 
holocaust-type fires remove all of the elements of habitat that 
spotted owls need.
    I don't think there's any question but that the kinds of 
fires that have been typical in California in the last 20 years 
have been harmful for spotted owls rather than helpful.
    Mrs. Chenoweth. Mr. Cosgrove, I see that you have a number 
of concerns with the Northwest Forest Plan. With regard to the 
northern spotted owl, how do you think the plan should be 
changed to provide for just this one species, just this spotted 
owl.
    Mr. Cosgrove. Well, the interesting thing about the 
Northwest Forest Plan is it was developed not just for one 
species. Across a three-state region, it is a little hard to 
justify having one plan that size for one species.
    It is my understanding that the spotted owl will still do 
quite well in old-growth habitat. We, of course, would like to 
see that protected for a wide range of varieties. If there is 
one general issue that we could address to improve owls 
population, owl habitat, and the species, I think we would have 
to look at that in the context of a greater plan overall.
    Mrs. Chenoweth. Tell me, in your opinion, what kind of 
monitoring do you think is necessary?
    Mr. Cosgrove. As far as management in the Northwest Forest 
Plan for timber activities, I think it is very important to 
monitor across the landscape, and say across the region, 
individual forests, and, of course, in a selected area for any 
type of timber harvesting activity or other development takes 
place.
    Mrs. Chenoweth. Do you believe, can you give me your 
personal opinion about what kind of timber sales do you think 
should be executed off of the public lands in the Northwest?
    Mr. Cosgrove. Yes, my organization supports the protection 
of old-growth forests, ancient forests, supports the protection 
of forested watersheds, municipal watersheds, the restoration 
of damaged watersheds. We do not support the continued timber 
harvesting in roadless areas.
    There is pretty large amount of managed forest out there. 
Some of it does need to be addressed as far as thinning. As I 
believe it was Mr. Williams said they are looking at some 
pretty innovative ways of habitat and other habitat 
development. Specifically some things I've heard about the 
Olympic National Forest.
    We do support those kind of things.
    Mrs. Chenoweth. You don't like clear cutting, though, do 
you?
    Mr. Cosgrove. Generally, no.
    Mrs. Chenoweth. Right. Tell me, what would you recommend in 
the case of certain diseases such as root rot that we find in 
some of the species?
    Mr. Cosgrove. One of the problems that we have in the 
Pacific Northwest is root rot with the port orford cedar, which 
is, as I understand it, caused by a fungus that is spread by, 
in a large amount by logging activity and on the wheels of 
motorized vehicles and these kind of things.
    In that particular instance, I think it would be a good 
idea to do what we can to not spread that fungus.
    Mrs. Chenoweth. To do what? I'm sorry.
    Mr. Cosgrove. To do whatever we can to not spread that root 
rot fungus. That would probably curtail, that would probably 
mean curtailing logging activity, motorized traffic, and what 
have you.
    Mrs. Chenoweth. Thank you, Mr. Cosgrove.
    Dr. Boyce, could you explain what you meant by 
institutional barriers?
    Dr. Boyce. Institutional barriers are complex and diverse. 
For example, if a person's job depends on the government 
operating under status quo, that person will be very resistant 
to change. Likewise, if a bureaucracy exists, to perform a 
particular function, it will resist any activity that threatens 
its future existence. The established bureaucracy for dealing 
with the northern spotted owl has exactly this sort of inertia 
that makes it difficult to find new and creative ways to manage 
spotted owls differently.
    And I would just refer you specifically to the streamlining 
documents that were submitted as part of the government's 
collection of papers to go with the written testimony from the 
government scientists.
    Mrs. Chenoweth. I'm not through with you yet.
    Aren't you concerned that logging in adaptive management 
areas would jeopardize the future of the northern spotted owl?
    Dr. Boyce. My concern is that the long-term future of the 
northern spotted owl will be jeopardized if we do not perform 
the management experiments that have been suggested for the 
adaptive management areas. We should not continue to manage 
under ignorance. I'm absolutely confident that will do a better 
job of management if we have better and more complete data. A 
better understanding of how these systems work.
    And that is the express purpose of the adaptive management 
areas.
    Mrs. Chenoweth. Well, gentlemen, I've kept you for quite a 
while. I want to thank you very much and ask if any of you have 
anything you would like to add for the record.
    Yes, Dr. Taylor.
    Dr. Taylor. A great deal of talk has centered on these 
large study areas where the demographic models that are 
supposed to allow us to detect trends in the population. Last 
fall I gave a paper at the wildlife society annual meeting on a 
topic that I think has gotten very little attention but is 
increasingly bothering me about these demographic models.
    The quality of the estimate of the population trend depends 
on the quality of the model. I've built a lot of models as a 
professional. I think modeling is important and it is a 
powerful tool, but models scare me somewhat because they can be 
wrong, really dramatically wrong sometimes. And scientists, and 
particularly managers, ought to be very sensitive to the need 
to find out how good a model is before you put a whole lot of 
reliance on the kind of predictions it makes.
    There is a general kind of principal in science that says 
the simplicity of a model has to do with how easy it is to show 
that it's wrong. The paper I gave last fall was, I tried to 
examine the simplicity by that sense. That is, the ease of 
falsifiability of the various models of spotted owls.
    The conclusion I reached is that the demographic model, 
while it is structurally very simple, is nearly impossible to 
falsify. It is nearly impossible to prove it wrong in 
principal. And if that's the case, it suggests that we are 
going to be basing for a long time into the future our 
assessment of the status of the spotted owl on a model whose 
reliability, the reliability of which we do not understand.
    And it seems to me that this is a very dangerous kind of 
thing to do. I don't see any effort or interest on the part of 
those who fiddle with this model, and those who develop it, in 
assessing whether it is right or wrong.
    Mrs. Chenoweth. That's very interesting. I would like to 
pursue this further with you.
    Mr. Cosgrove, do you have anything you would like to add to 
the record?
    Mr. Cosgrove. I would just like to thank you for, commend 
you for your interest in the data of the spotted owl and the 
management of our forests in the Pacific Northwest. I hope that 
you can extend this and look into the Northwest Forest Plan and 
how it deals with a number of issues, particularly salmon, 
drinking water supplies, recreational opportunities, and these 
kinds of things.
    Mrs. Chenoweth. Thank you.
    Mr. Cosgrove. Thank you very much.
    Mrs. Chenoweth. Dr. Irwin?
    Dr. Irwin. Thank you Madam Chairman. I do have one final 
comment. It relates to the question of adaptive management and 
perhaps adds to the comments that Bob Taylor just made. That, I 
heartily recommend approval and support of the effectiveness 
monitoring plan that Dr. Raphael mentioned earlier.
    However, it is not clear at all if the monitoring plan as 
approved continues, that if the owl population is demonstrated 
to continue to be declining, we will not know for sure whether 
it was the plan, the Northwest plan that caused that, or 
something else. And the same thing is true, really, that even 
if the population shows up to be stable, we won't know for sure 
if it's the plan that did that.
    I think there needs to be some more discussion of the 
monitoring plan in terms of adaptive management because, let's 
say, for example, the strategy turns out to be incorrect. What 
do we adapt to? Where do we go from here? And the way we're 
headed now, the only thing that could happen would be increased 
restrictions on forest management.
    If we develop a process for thinking about the system in 
terms of multiple operating hypotheses, using adaptive 
management areas, we could test simultaneously more than one of 
these, so that if the current strategy proves not to be the 
optimal one we would have some other options to go toward.
    I appreciate your comment. Thank you.
    Mrs. Chenoweth. Very interesting. Thank you very much.
    Dr. Boyce, do you have anything you'd like to add?
    Dr. Boyce. Yes, thank you. I think that it is very 
difficult to evaluate the effectiveness of landscape scale 
management. I don't believe that the adaptive management areas 
by themselves are probably adequate in size to do that very 
effectively or efficiently.
    And, in general, designing schemes to evaluate the 
effectiveness of landscape scale management is a very difficult 
challenge, but I believe it needs to be tackled. I think there 
are some opportunities by using data from the new HCP's that 
are being implemented and hopefully we can see enough variation 
across the landscape in dif-

ferent management schemes to know how well they are working in 
the future.
    Mrs. Chenoweth. Thank you, Dr. Boyce. Again, gentlemen, I 
want to thank you for your time.
    And, as I have said earlier, the record will remain open 
for 10 days, should you wish to supplement or change your 
testimony. Work with my staff, Ann Heissenbuttel, and with 
that, this hearing is adjourned. Thank you.
    [Whereupon, at 4:26 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
 Statement of Bill Pauli, President, California Farm Bureau Federation

    The California Farm Bureau Federation represents more than 
75,000 member families, many of whom are timber families 
directly impacted by the listing of the Northern Spotted Owl. 
This listing has had a serious impact on our economies while 
doing little to actually restore and preserve the species.
    In 1990, when the Fish and Wildlife Service decided to list 
the species, the agency contended that the bird was being 
driven to the brink of extinction due to the harvesting of old-
growth timber, which the owl is purported to depend on for 
survival. Total numbers of owls in the three-state region were 
speculated to be at 3000-4000 pairs, with fewer than 600 pairs 
actually counted in the Northern California Region. As of 1996, 
the California Forestry Association's coordinated research with 
the California Department of Fish & Game found 2262 known owl 
sites in California with an estimated 1,800 breeding pairs of 
spotted owls from surveys of 50-60 percent of the region. The 
projected total population of northern spotted owls in 
California, based on this research, is a range of 4450 to 8500.
    Studies show that the survival of the owl is not linked 
directly to old-growth forests. Northern Spotted Owls are known 
to thrive in many kinds of second-growth, ``managed'' forests 
where trees average as small as 15" in diameter. One of the 
largest habitat conservation areas in the President's Northwest 
Forest Plan is located in Indian Valley near Hayfork, 
California. It is considered ``one of the very best places'' 
for owls to live. Indian Valley is also one of the most 
intensely managed lands in Northern California having been 
logged for over three generations.
    Furthermore, in lowland forests along California's northern 
coast, the presence of old growth trees is considered far less 
important than the presence of wood rats, a primary source of 
food. Where wood rats are abundant, owls are abundant even when 
other habitat features are considered marginal. Conversely, 
where habitat is considered prime, old-growth forests, but wood 
rats are not present, owls are rarely found.
    Using this scientific evidence, the California Forestry 
Association petitioned the Secretary of the Interior, in 
October 1993, to de-list the northern spotted owl in 
California. In August 1994, this petition to de-list was 
denied.
    Today, we are still living with the impacts of the Northern 
Spotted Owl listing. Our national forests are poorly managed, 
with one in every six trees dead or dying. Last year, only 
12.66 percent of the total timber harvested in California came 
from public lands. Under current conditions, approximately 177 
million board feet of merchantable timber will be left to rot 
and or burn each year. Federal timber sales in the Klamath 
Province have been at the lowest level since 1953. In the last 
2 years for which we have data harvest declined from 181.6 
million board feet in 1953 to 145.4 million board feet in 1993 
and 113 million board feet in 1994. Timber sales in the 
California portion of the Klamath Province from 1983-1988 
totaled 3,709.6 million board feet. From 1989, the year the owl 
debate heated up, to 1994, sales have totaled 1,307.5 million 
board feet--a 35 percent decrease, and the threat of a 
catastrophic forest fire has never been greater.
    Communities whose culture is intertwined with timber 
management are being replaced with ghost towns. Families 
continue to suffer because parents aren't working. Perpetuating 
the injunctions and bans on timber harvests will not save the 
owl or the environment, it will only compound the pain being 
inflicted on the working class and continue the demise of rural 
communities in California, Oregon, and Washington.
    In 1988, more than 110 mills were operating in California. 
From 1988 to 1994, 4,745 mill jobs were lost. In 1990, 1 year 
after the owl was officially listed, 13 mills closed, leaving 
1,208 people unemployed. Today, 61 mills remain in operation. 
In the California portion of the Klamath Province, more than 31 
mills have closed leaving more than 3,000 people unemployed. In 
1990 alone, 9 mills in the California portion of the Klamath 
Province closed, leaving 821 people unemployed. While 
unemployment rates nationwide continue to decline, in northern 
California, they steadily increase. Many Trinity County school 
districts have more than 96 percent of their students living at 
or below the poverty level.
    Forests can be protected and sustained in a manner which 
preserves species, restores timber jobs and restores the dreams 
and heritage of these suffering communities. The scientific 
data concerning spotted owls must be acknowledged and utilized. 
When protective measures are advanced, local economics must be 
considered. The U.S. Fish and Wildlife Service must seriously 
consider the new findings concerning spotted owl numbers and 
habitat requirements and make appropriate adjustments. The 
Northwest Forest Plan must be amended to promote the kind of 
habitat the owl truly needs--second-growth, managed forest 
ecosystems. The damage currently being inflicted on the timber 
industry, rural communities and the owl itself is unacceptable. 
Corrective actions, based on sound science, must be taken 
immediately.
                                ------                                


Statement of Dr. Mark S. Boyce, Vallier Chair of Ecology and Wisconsin 
     Distinguished Professor, University of Wisconsin-Stevens Point

    Madam Chair and members of the Subcommittee, I am honored 
to have the opportunity to present my thoughts on the 
importance of recent research on the northern spotted owl for 
the management of forests in the Pacific Northwest. My name is 
Mark S. Boyce. I received Masters and Ph.D. degrees from Yale 
University and had a NATO postdoctoral fellowship at Oxford 
University. I currently hold the position of Vallier Chair of 
Ecology and Wisconsin Distinguished Professor in the College of 
Natural Resources at the University of Wisconsin-Stevens Point 
in the largest undergraduate natural resources program in the 
United States. I have recently completed a 3-year tenure as 
editor-in-chief for the Journal of Wildlife Management which is 
The Wildlife Society's research periodical. I serve as 
President of the Wisconsin Chapter of the Wildlife Society, and 
Vice President for Sciences of the Wisconsin Academy of 
Sciences, Arts and Letters.
    I have published about 150 scientific papers and six books 
including Ecosystem Management: Applications for Sustainable 
Forest and Wildlife Resources (1997, Yale University Press; 
with Alan Haney), The Greater Yellowstone Ecosystem: Redefining 
America's Wilderness Heritage (1991, Yale University Press; 
with Robert B. Keiter), and The Jackson Elk Herd: Intensive 
Wildlife Management in North America (1989, Cambridge 
University Press). I have conducted research on spotted owls 
since 1987, when I was asked by the National Council for Air 
and Stream Improvement (NCASI) to review the USDA Forest 
Service's Draft Supplemental Environmental Impact Statement on 
the northern spotted owl. Subsequently I have studied spotted 
owls in Oregon and Washington with research funded primarily by 
the USDI Bureau of Land Management and NCASI. I am coauthor 
with Joseph S. Meyer and Larry L. Irwin on a peer-reviewed 
monograph on spotted owl habitat ecology that recently has been 
accepted for publication in Wildlife Monographs, and will 
appear in print this summer.
    I wish to speak about some highlights of our research on 
spotted owls, and the ramifications of this research for 
management of forests in the Pacific Northwest. Despite the 
fact that our research speaks to important aspects of spotted 
owl habitats, I am concerned that our research will see little 
application because there exists so much inertia in the current 
forest management plan. Thus, a general issue that I wish to 
address is the importance of accommodating science in 
management, and how government must have the flexibility to 
change when new scientific information becomes available.
    As a population ecologist, I believe that I am well 
qualified to speak to the issue of management of the northern 
spotted owl because it was a population model for spotted owls 
that structured the design for management of the Pacific 
Northwest forests. The principles for this model were outlined 
initially by Russell Lande in 1987, and subsequently were 
expanded into computer simulation models used by the 
Interagency Scientific Committee (ISC) as well as President 
Clinton's Forest Ecosystem Management Assessment Team (FEMAT; 
see Lamberson et al. 1992. Conservation Biology 6:505-512; Noon 
& McKelvey 1996. Annual Reviews of Ecology and Systematics 
27:135-162). These models predicted that isolated patches of 
habitat would be less likely to be occupied, and they predicted 
that forest edge had deleterious consequences for the owls. We 
designed our research to evaluate the underlying premise that 
dispersal by owls was key to determining the location of owl 
territories and how frequently these territories were actually 
occupied by owls. In addition, we designed research to evaluate 
the hypothesis that the location and juxtaposition of timber 
harvests resulting in forest fragmentation were shaping the 
distribution and habitat occupancy by spotted owls. Likewise, 
we studied how the extent of forest edges in an area influenced 
territory locations and site occupancy. But we found no 
evidence that isolation, edge, or fragmentation influence owl 
occupancy and distribution. Instead, our results indicated that 
the distribution and site use by spotted owls could be 
attributed entirely to habitat losses, primarily loss of old 
growth forests. And given the documented declines in old growth 
habitats, declines in the owl population could be attributed 
solely to loss of these habitats.
    Our results are specific to southwestern Oregon where 
essentially the owl habitat has not been fragmented 
sufficiently for there to be any effect of landscape patterns 
on owl distribution and occupancy. If the landscape were 
substantially more fragmented and habitat patches were much 
more isolated than is presently the case, we cannot rule out 
the possibility that fragmentation might be a significant 
contributor to patterns of spotted owl distribution and site 
occupancy.
    Another important result from our research is that in 
southwestern Oregon, some of the best spotted-owl habitat 
occurs when old growth is adjacent to young pole-timber stands. 
Research by Sakai and Noon (1993, Journal of Wildlife 
Management 57:373-382) indicates that our observation is 
attributable to the importance of dusky-footed woodrats that 
are produced at a higher frequency in young-aged stands. This 
would argue for the importance of having logging dispersed 
amongst owl habitat areas, in contrast with the large old-
growth reserve concept, but so far this has not been found to 
be the case.
    We developed new models focused on owl habitat called 
resource selection functions. These habitat-based models do an 
excellent job of predicting the observed distribution of owls 
and we believe that habitat models like ours should be used in 
evaluating what constitutes owl habitat in the Pacific 
Northwest. Furthermore, we believe that our habitat-based 
models could be used effectively to evaluate forest management 
alternatives.
    Our results have vast implications for the management of 
the Pacific Northwest forests for spotted owls and timber 
production. First, the ability of the owls to disperse appears 
sufficient to ensure colonization of habitat patches given the 
scale at which the landscape is currently fragmented in 
southwestern Oregon. Therefore, our results lead us to question 
the justification for the strategy of managing for large blocks 
of old growth in Habitat Conservation Areas (HCAs). Indeed, our 
results lead to the hypothesis that a greater total population 
of spotted owls could be maintained on the landscape if smaller 
blocks (on the order of 1-2 square miles) of old growth were 
more widely dispersed across the landscape. This way we could 
maintain owls more broadly across the landscape supported by 
rodents emerging from shrublands and pole timber stands. 
Perhaps the FEMAT approach to managing Pacific Northwest 
forests is optimal. But we do not know this, and we will never 
know if we do not evaluate it when presented with new 
information.
    On the Olympic Peninsula, woodrats are not as important a 
component of the diet as in Oregon. Yet research on habitats of 
spotted owls from the Olympic Peninsula indicated that the 
habitat model that we derived for SW Oregon was about equally 
effective for Olympic Peninsula owls. Larry Irwin has found 
similar results on Plumb Creek lands on the east slope of the 
Cascades of Washington. Our habitat models for the northern 
spotted owl appear to have widespread application, i.e., they 
apply under a variety of habitat situations.
    Our results are typical of science in general, i.e., we 
test hypotheses about how nature works. Research is designed to 
test hypotheses. When we reject the hypotheses we must revisit 
the hypotheses and develop new ones. This ponderous slow 
process by which science works ensures that we have reliable 
knowledge. But when science is applied to the management of 
natural resources, it also requires that we have the 
flexibility to alter management to take advantage of new 
information. This interface between science and management is 
called adaptive management. Scientists first develop a 
hypothesis about how we think the system works, often framed in 
a mathematical or computer model. Then we design management 
experiments that can test this hypothesis.
    For example, we might hypothesize that selective cutting 
regimes could hasten the recovery of old growth 
characteristics. To evaluate such a hypothesis, we need to 
design selective harvesting experiments in areas where the 
consequences to spotted owls can be monitored and the result of 
the experiment evaluated.
    This raises my primary concern about current forest 
management in the Pacific Northwest. Now that the plan 
developed by President Clinton's Forest Ecosystem Management 
Assessment Team (FEMAT) is largely in place, we seem to have 
little opportunity for changing the management plan. 
Furthermore, even though the FEMAT plan and the previous 
Interagency Scientific Committee (ISC) plan called for adaptive 
management, implementation of adaptive management has been slow 
in coming. In some instances the U.S. Fish and Wildlife Service 
has not granted permission to perform experimental management 
on areas that were established for the express purpose of 
conducting adaptive management, i.e., Adaptive Management Areas 
(AMAs). Certainly we can never evaluate the consequences of 
forest management if we do not continue to monitor spotted owl 
populations.
    Madam Chair and members of the Committee, I urge you to do 
what is necessary to ensure that the USDA Forest Service and 
the USDI Fish and Wildlife Service work together to ensure that 
adaptive management protocols are implemented on each and every 
adaptive management area that was set aside by FEMAT. Carefully 
planned logging on these sites cannot threaten the persistence 
of the northern spotted owl on the short term. And on the long 
term, these experimental management exercises can only work to 
ensure the long-term viability of the owl. Without adher-

ence to adaptive management protocols, we will never find 
creative solutions to the difficult forest management situation 
in the Pacific Northwest. Only through experimental management 
on AMAs and careful monitoring of owl populations can we expect 
to move out of the current management gridlock. I am convinced 
that scientific management can provide solutions so that we can 
have owls, old grown forests, logging, anadromous fisheries, 
and people in the forests of the Pacific Northwest.
    Our current government contains institutional barriers to 
the implementation of adaptive management. I believe that we 
can do a better job of scientific management. But overcoming 
these institutional barriers is an enormously complex task. 
Therefore I would like to encourage Congress to enlist the 
support of the National Research Council to design 
institutional mechanisms that would facilitate adaptive 
management.
    Thank you for the opportunity to express my views.

INFLUENCE OF HABITAT ABUNDANCE AND FRAGMENTATION ON NORTHERN 
SPOTTED OWLS IN WESTERN OREGON
Joseph S. Meyer, Department of Zoology and Physiology, 
University of Wyoming, Laramie, WY
Larry L. Irwin, National Council of the Paper Industry for Air 
and Stream Improvement, Stevensville, Montana
Mark S. Boyce, College of Natural Resources, University of 
Wisconsin, Stevens Point, Wisconsin
    Abstract: Current management for the northern spotted owl 
(Strix occidentalis caurina) is largely driven by 
metapopulation models or individually-based models that assume 
the success of juvenile dispersal in a fragmented landscape is 
a primary factor determining the future existence of spotted 
owls in the Pacific Northwest. We tested hypotheses about 
fragmentation by comparing sites known to be occupied by 
spotted owls with random sites to determine if relationships 
existed between landscape indices and spotted owl presence and 
productivity in western Oregon.
    From a total of 445 known spotted owl sites within the 
Bureau of Land Management's (BLM) checkerboard patterned lands 
in western Oregon, we randomly selected (1) 50 long-term data 
sites to determine if landscape characteristics influenced site 
occupancy or reproduction, (2) 50 random owl sites to evaluate 
possible biases in the long-term data sites, and (3) 50 random 
landscape locations for comparison with the 50 random owl 
sites.
    BLM staff classified from aerial photographs the mosaic of 
forest successional stages within a 3.4-km-radius circle 
surrounding each of the 150 sites. From these mosaics, we 
calculated several indices of landscape characteristics and 
forest fragmentation for 0.8-, 1.6-, 2.4-, and 3.4-km-radius 
circles. Results were combined with data on occupancy and 
reproduction to test the null hypotheses that landscape 
characteristics did not affect site location, site occupancy, 
or reproductive success of spotted owls.
    Landscape indices did not differ between long-term owl 
sites and randomly selected owl sites, indicating little bias 
in our sample of long-term data sites. Landscape 
characteristics at random owl sites differed significantly from 
those at random landscape locations. Differences were greatest 
for 0.8-km-radius circles surrounding the study sites, 
suggesting that site selection by spotted owls may be most 
strongly affected by landscape characteristics within a 0.8-km-
radius circle (> 200 ha). Statistically significant differences 
also were found for radii up to 3.4 km, but most of those 
differences did not contribute significant new information 
beyond the differences existing in the core area of the 
circles.
    Random owl sites contained more old-growth forest, larger 
average size of old-growth patches, and larger maximum size of 
old-growth patches than occurred in random landscape locations, 
for all circle radii (P < 0.01). Additionally, random owl sites 
contained less young-age forest within 0.8-km-radius circles 
than did random landscape locations. However, amount of 
clearcut forest did not differ between random owl sites and 
random landscape locations.
    None of the forest fragmentation indices except size of 
old-growth patches was strongly related to site selection, none 
was strongly related to frequency of occupation of sites, and 
only fractal dimension was moderately related to reproduction. 
Instead, the major influences of landscape pattern were related 
to amount of habitat. Amount of habitat dominated in resource 
selection probability functions (RSPF) for western Oregon, and 
these RSPF's can be used to predict the probability that a 
given landscape mosaic will be a suitable spotted owl site.
                                ------                                


    Statement of Dr. Robert J. Taylor, Consulting Wildlife Ecologist

    The purpose of this hearing is to assess the status of the 
northern spotted owl, the impact of national forest management 
activities on owl populations since enactment of the 
President's Forest Plan, and the impact of the owl on 
management activities within the area of the President's Forest 
Plan. My remarks will be limited to California, since that is 
the primary locus of my expertise.

The status of the northern spotted owl

    The answer to this question is best addressed by describing 
the evolution of knowledge about this species over the last 
decade. Well before the spotted owl was proposed for listing, 
the California Department of Fish and Game had established a 
data base for owl observations. By the mid 1980's all Federal 
and state agencies had accepted this data base as the 
repository for their survey information. The CDF&G accepted the 
responsibility for establishing the accuracy of these data and 
inferring from them the spatial pattern of spotted owl 
territories. All researchers involved with spotted owls now 
agree that this is the single most reliable source of 
population-wide data in California.
    At the time of the spotted owl status review in 1989, the 
state data base contained information on about 500 pairs of 
owls. These were thought to constitute the majority of the 
total population. Owl observations were heavily clustered on 
national forests, with a light scattering on private lands. 
Scientists thought the owl population was becoming increasingly 
patchy as its required old-growth habitat slowly disappeared. 
The few owls known to occupy second-growth forests on public or 
private lands were considered to be outcasts from good habitat, 
living in population sinks where survival and reproduction were 
low. An abortive attempt by the California Department of 
Forestry and Fire Protection to craft a statewide habitat 
conservation plan in 1992 reflected this kind of thinking. That 
plan assumed that owl habitat was very patchy and that survival 
of this species required an elaborately designed system of 
habitat refuges on both public and private lands.
    We know now that these initial impressions of the size and 
extent of the spotted owl population did not reflect the 
ecology of the spotted owl so much as they reflected incomplete 
and biased survey data. Data on private lands were largely 
absent at the time the listing decision was made. Intensive 
surveys of private industrial forests began in 1989, have 
continued to the present, and now represent some of the better 
information in the state's data base.
    The number of breeding pairs in California can be arrived 
at by consideration of the following information. About half 
the forested land in the owl's range is in national forests; 
the remaining half is divided among private industrial forests, 
small private holdings, a state demonstration forest, and 
various state and national parks and BLM holdings. Not all of 
these lands have been surveyed for owls. The percentages 
surveyed are as low as 40 percent for nonindustrial private 
lands and as high as 90 percent for some private industrial 
forests. The percentage of suitable national forest lands 
surveyed is approximately 50 percent.
    As of the 1996 field season, approximately 2,500 spotted 
owl territories had been identified in California. About half 
of these lie in the national forests, and half lie in the other 
public and private holdings. Not all sites are occupied every 
year; estimates of occupancy range from 78 percent to 95 
percent, depending on location. The percentage of occupied 
sites held by breeding pairs (some territories are held by a 
solitary male) appears to vary between 40 percent and 90 
percent. I have combined these statistics to estimate the 
number of breeding pairs in California at approximately 1,800. 
The cumulative error is such that the number could be as low as 
1,500 and as high as 4,000. In addition there should be as many 
juveniles and unpaired adults as breeding pairs.
    The spatial pattern of these territories shows complete 
coverage of the surveyed forested portion of northwest 
California. Spotted owls are found breeding in habitats ranging 
from redwood forests to east-side pine forests in the north. At 
the southern end of their range in Marin, Napa, and Sonoma 
counties they commonly nest in hardwood dominated stands. Since 
clear-cutting has not been a common method of logging in 
California, patch cutting and individual-tree selection have 
produced an enormous variety of managed forest types in the 
spotted owl's range. All of these appear to be occupied by 
owls. Although various habitat studies suggest that owls prefer 
dense stands of large trees, banding studies have not shown any 
difference in survival and reproduction between owls living in 
relatively undisturbed old growth and in managed second growth.
    Assessment of the trend in this population is difficult. 
One of two adjacent demographic study areas in Humboldt County 
shows a slight decline. The other shows constancy. Modeling of 
the entire California population is in an early stage. The one 
model that has been applied shows stability of the population 
for plausible values of unmeasured parameters.
    To summarize, the scientific theory that dominated the 
President's Forest Plan, that the spotted owl population was 
headed toward a precarious existence in a limited number of 
refuges, has not proved robust to new information gathered on 
private forest lands. The spotted owl appears to be more 
flexible in its use of forest habitats and its population more 
robust than originally thought.

The impact of national forest management activities on owl 
populations since enactment of the President's Forest Plan

    The primary management impact of the President's Forest 
Plan has been to stop nearly all logging in the four national 
forests within the northern spotted owl's range in California. 
What effect this has had on the component of the owl population 
living on the national forests is difficult to assess since the 
President's Plan was implemented shortly after the Forest 
Service put a nearly complete stop to monitoring activities. At 
its best Forest Service monitoring was never particularly good. 
The use of inexperienced crews and the frequent failure to 
follow standard survey protocols placed the reliability of 
government data below that of industry-gathered data. Even 
those data ceased to come in after the 1992 field season. Once 
the owl was listed and the President's Forest Plan was in 
place, the research branch of the Forest Service seemed to 
direct the bulk of its attention to the California spotted owl, 
a subspecies not yet listed under the Endangered Species Act.
    One can only speculate about the effects of an aging and 
increasingly homogeneous forest on owl populations. My own 
speculation is that the trend will be worse for the owl, as its 
preferred prey in more open forests, the dusky-footed woodrat, 
is replaced by the smaller and less-common flying squirrel. If 
fire were allowed to regain its historical frequency in the 
national forests, then it might provide habitat for woodrats to 
compensate for the absence of man-made openings.

The impact of the owl on management activities within the area 
of the President's Forest Plan

    The change in management of public land is clear; logging 
is a small fraction of what it was 10 years ago. How much of 
this can be attributed to concern for spotted owls is difficult 
to know. While the owl served as the poster child for the 
President's Forest Plan, the FEMAT team generalized the issue 
far beyond this one species.
    The change in the management of private land has been more 
complicated. Because of the decline in timber harvest on the 
national forests, the value of the remaining mature timber on 
private lands has increased. The combination of increased value 
and the looming threat of greater regulatory control has tended 
to accelerate cutting on many private land holdings. Timber 
owners that formerly maintained owl habitat in excess of that 
demanded by the state are increasingly pushing the limit.
    The other major impact on private land is a concentration 
of the forest industry into fewer larger land owners. A total 
of 64 lumber mills have closed in northern California in the 
last 10 years, a number of these small, family-owned 
operations. The large companies that survived this revolution 
in the industry have more resources to put into regulatory 
issues, are less dependent on public timber, and have seen the 
values of their lands soar. How this shift will play out on 
forest management is not yet clear. Optimists think that 
private forest management will fall increasingly into 
professional hands. Pessimists believe that return on 
investment will increasingly win out over good forest 
stewardship.

Conclusion

    Given the dramatic shift in what scientists know about 
spotted owls, one would think that the original regulatory 
standards for habitat could be modified somewhat on both public 
and private lands. But nobody on the Federal or state level is 
prepared to move on this issue without an indication from the 
U.S. Fish & Wildlife Service that such a move is acceptable. 
The Service, in turn, seems unable or unwilling to do anything 
on a programmatic level. Six years after the publication of a 
draft recovery plan, no final plan has appeared. Four years 
after the Service initiated Section 4(d) rules for private 
lands, no rule has been published.
    To be fair to the Fish and Wildlife Service, there is some 
residual disagreement among scientists as to what all this new 
information means. The lack of a unanimous voice on such a 
contentious issue may be one factor in the Service's timidity. 
If any action one takes can be assaulted in a courtroom by an 
articulate spokesman for an alternative, the bureaucratic mind 
is tempted to take no action. Unfortunately no institutional 
mechanism exists by which scientists can be forced to reconcile 
their differences, short perhaps of a government-sponsored 
review.
                                ------                                


    Statement of Dr. Larry Irwin, Senior Scientist from NCASI, Inc.

    I am a Principal Research Scientist with the National 
Council of the Paper Industry for Air and Stream Improvement, 
or NCASI, which is a non-advocate, non-profit research and 
environmental management organization. We conduct research that 
seeks to reveal cost-effective options for managers to blend 
environmental values with economic goals. Most of the research 
that we undertake is conducted in cooperation with scientists 
from other organizations or institutions. Some 60 percent of 
the research funding for the Western Wildlife Program, which I 
manage, is provided by the forest products industry; the 
remaining 40 percent comes from Federal, state, or private 
organizations.
    I was educated at the University of Montana, University of 
Minnesota, and University of Idaho, completing my PhD degree in 
1978. Before coming to NCASI, I was a professor at the 
University of Wyoming for 8 years, and I currently hold faculty 
affliate appointments at Oregon State University and the 
University of Montana. My professional experience involves 24 
years of scientific inquiry on the topic of interactions 
between wildlife populations and habitats. That experience has 
involved research on habitat dynamics and populations of large 
mammals as well as songbirds and predatory birds. I began field 
investigations on Spotted Owls in 1986, and currently supervise 
owl research projects in Washington, Oregon and California. I 
have written or co-authored about 85 scientific publications, 
including journal articles, several book chapters and 3 book-
length monographs. About 15 publications involved Spotted Owls.
    From October 1989 through spring 1990 I served as a 
technical advisor/observer to the Interagency Scientific 
Committee, or ISC (also known as the Thomas Committee) to 
Address the Conservation of the Northern Spotted Owl. My 
purpose today is to discuss four topics relative to scientific 
information that has been gathered since the owl was listed as 
a threatened species:

        A. Spotted Owl population trends;
        B. Linking owl population trends with habitat conditions;
        C. Risks of large-scale wildfires; and
        D. The value of manipulative, adaptive management experiments.
    Spotted Owl Population Trends--. There is new information about 
trends in Spotted Owl populations, especially as those trends may 
relate to habitat conditions. wildlife scientists combine estimates of 
annual survival rate with data on reproduction to arrive at population 
trends. Survival rates cannot be accurately measured, so they are 
estimated indirectly by computer-based analytical models. The models 
translate data from repeated observations of individually identifiable, 
leg-banded owls. Model output from combined data from several studies 
has been interpreted to mean that annual adult female owl survival may 
be declining, and that it may be declining at an accelerating rate. If 
the declining survival-rate estimates can be accepted, and if they were 
linked statistically with measures of habitat conditions, they would 
certainly be cause for concern.
    On the other hand, re-observations of owls at their nest sites do 
not defend the computer projections. One possible reason for the 
disparity is that the models may not account well for the ways that 
Spotted Owls are actually sampled in the field. It is well known that 
female owls are only rarely captured and banded (i.e., sampled) unless 
field crews first find their associated males. For example, a recent 
study demonstrated that computer models that do not account for male-
dependent sampling of females could result in incorrect 
interpretations. And another study suggested that the computer models 
may be overly pessimistic because they do not account for owls that 
emigrate from study areas. That study suggested that population trends 
may be under-estimated by 3-13 percent.
    Consequently, NCASI scientists developed a method that accounts 
better for the ways that owls are sampled, and under some conditions, 
also accounts for emigration. When we entered the data in the 
analytical models, we found evidence that adult female owl survival 
rate has been relatively stable since 1990 along the eastern slope of 
the Cascade Mountains in Washington. This information, which has been 
submitted for formal publication, suggests there is reason to be 
optimistic about owl population trends in that area.
    Linking owl population trends with habitat conditions--. We know 
now that relationships between Spotted Owl populations and forest 
conditions are much more complex than previously believed. Old forests 
provided a reasonable starting basis for predicting where we might find 
Spotted Owls, so naturally, old forests formed the backbone of the 
conservation strategy. However, after the owl was listed, it soon 
became apparent that there was more to the owl/forest relationship than 
old forests, because many private timberlands without extensive old-
growth forests were found to contain Spotted Owls. For example, we 
found 55 sites occupied by Spotted Owls in a western Oregon landscape 
that contains less than 10 percent mature and old-growth forests.
    That information directed our studies somewhat, and we subsequently 
found that suitable Spotted Owl habitat involves multiple and 
interacting environmental factors, not just age or growth stage of 
forest. These additional factors include undergrowth vegetation, 
standing and fallen dead trees (or snags), and attributes of the 
physical environment. That old-growth, by itself, is weakly correlated 
with owl reproductive success is explained below, as there are 
implications for owl conservation and management.
    Since 1990 I have supervised a research project that spans most of 
the length of the eastern slope of the Cascades Range in Washington, 
extending from the Canadian border to the Oregon border. The area 
contains perhaps one-third of the Spotted owls in Washington. There, 
about 25 percent of over 100 Spotted Owl nest sites that have been 
sampled occur in old-growth forests. The remainder occurs in forests 
that are in intermediate stages of forest growth, owing to past forest 
fires and previous selective timber harvesting. The area contains 
several Federal late-successional reserves (or LSRs) that were set 
aside from timber harvesting to protect Spotted Owls. These late 
successional reserves were initially proposed to be set aside by the 
Thomas Committee in 1990. Subsequently, the reserve network was 
expanded by the President's Northwest Forest Plan in 1993. It was 
assumed the LSR set-asides would contain Spotted Owls that should be 
doing well because the areas have the most extensive mature and old-
growth forests.
    However, the assumption proved to be incorrect. In our study, 
reproductive success by Spotted Owls is not statistically correlated 
with amounts of old-growth forests. In fact, we found that Spotted Owls 
within non-reserved areas, where there is about 50 percent less old-
growth forests, produce twice as many young owlets as owls living in 
reserved forests along the Cascades crest. This seemingly contradictory 
pattern has been consistent since 1990. It is related to differences in 
forest types, past forestry practices and to the physical environment. 
In the areas where owls produce the most young, it seems that 
productive soils, less annual precipitation, and less rugged topography 
probably translate into greater abundance and availability of the owl's 
food base. The result is that owls in such areas are more productive 
than anywhere else, despite those areas having less old-growth forests. 
Therefore, more factors than age or growth stage of forest are needed 
to make reliable predictions about reproductive success among Spotted 
Owls.
    Risks of large-scale wildfires--. After the Spotted Owl was listed 
in 1990, we documented evidence of a high potential for extensive 
wildfires to devastate owl habitats in the eastern Washington Cascades, 
where forest health has deteriorated significantly. The same appears 
true for the eastern Oregon Cascades and the Klamath Region in southern 
Oregon and northern California. In 1992, scientists concluded there 
also was high wildfire likelihood in many areas occupied by the 
California Spotted Owl in the Sierra Nevada Range. The risks are 
highest in areas where dense, undergrowth trees create ``ladder'' 
conditions that allow small fires to reach forest canopies and escalate 
into landscape-scale wildfires. Such an event occurred in 1994, when 
over 200,000 acres burned along the eastern slope of the Washington 
Cascades. There, some two dozen owl sites were consumed in the fires. 
Therefore, we know now that we have what scientists call a ``wicked 
ecological problem'': ``How can we protect Spotted Owls in forested 
areas with high probability of non-natural, large scale wildfires?''
    The points discussed above have several ramifications. First, 
forest planners would be well-advised to be cautious about relying only 
on maps of the most extensive old forests to locate reserve areas for 
long term owl conservation. Second, owls have apparently colonized 
forests that have re-grown after previous timber harvests that left 
standing dead and downed trees. Third, preserving a network of the 
oldest forests may not be optimal in the long run for Spotted Owls in 
fire-prone areas. What we might consider doing about these topics is my 
fourth point, described below.
    The value of manipulative, adaptive management experiments--. There 
are significant opportunities for developing compatibility between 
Spotted owls and forestry. For example, it should be possible to re-
condition forests in fire-prone areas and yet maintain the owls. And it 
should be possible to create suitable Spotted Owl habitat more 
generally in judiciously managed forests. In each case, forest managers 
who choose to do so would need to account for the appropriate 
vegetation structures, in relation to the physical environmental 
features described above. Indeed, knowing that suitable owl habitat had 
been created fortuitously, or by default, in some managed forests, the 
Thomas Committee suggested that forest managers should be able to 
produce it by design.
    Note that this doesn't mean that scientists are certain about how 
to provide for a viable population of Owls in managed forests over the 
long term. However, there is sufficient to point us in the right 
direction. Creating and maintaining Spotted Owl habitat after clearcut 
timber harvesting most likely cannot be done in less than 30-40 years 
in most Douglas-fir forests. Given that, the issue in such forests is 
partly one of scheduling forest treatments over time and across the 
landscape, which forest managers know how to do. And it is partly an 
issue of how much structure to leave behind, as well as where to put 
the structures. In forest types where less-intensive forestry 
practices, such as partial timber harvesting, may efficiently be used 
to reduce the risks of fire, it may well be that owls will continue 
using the treated stands. Or perhaps there will be a short hiatus, 
after which the owls re-use the treated forest stands. In fact, several 
scientists have indicated that they believe that carefully-applied 
partial cutting would not degrade habitats in the short term and that 
such treatments may well improve habitat conditions for owls over the 
long run.
    Developing the potentials of either method for accommodating 
Spotted Owls in managed forests requires more development. Both topics 
require manipulative forest experiments designed to test several 
promising options simultaneously. Such active ``adaptive managements'' 
requires linking research with monitoring to point out the optimal 
direction for management. To our knowledge, adaptive management 
activities indicated by the Thomas Committee in 1990, including 
developing silvicultural programs compatible with Spotted Owls, have 
yet to become operational. Indeed, Federal monitoring and research 
programs for Spotted Owls have been significantly reduced.
    In summary, then, there is significant information on Northern 
Spotted Owls that applies at levels of forest stands to landscapes. 
However, there seems to be no formal mechanism for infusing new 
scientific information into decision-making processes. Therefore, I 
respectfully suggest that the Subcommittee on Forestry of the House 
Resources Committee consider impaneling a body of scientists, perhaps 
through the National Research Council, to review the information, to 
evaluate barriers that seem to impede rapid application of useful 
information, and to recommend actions that could improve conservation 
and management for Northern Spotted Owls.
    Further, and mindful of the need for judicious budgeting, the 
following specific suggestions are proposed:

        1) Support increased funding for Spotted Owl research, 
        especially that which links monitoring of Spotted Owl 
        population trends with habitat conditions and environmental 
        attributes.
        2) Encourage the research programs to emphasize rapid 
        development and application of silvicultural methods that are 
        both compatible with Spotted Owls and will reduce risks of 
        wildfire in fire-prone forests.
        3) Enable adaptive management programs that could support a 
        suite of conservation strategies that protect Spotted Owls 
        across a landscape mosaic of managed and unmanaged forests. 
        Such programs should contain provisions for regularly updating 
        Federal agency staff to promote rapid application in 
        management.
                                 ______
                                 

     Statement of James Lyons, Undersecretary of Agriculture, U.S. 
                       Department of Agriculture

    Madam Chairman and members of the Subcommittee: Thank you 
for the opportunity to address the Committee to discuss the 
impact and status of the northern spotted owl on National 
Forests. Today I am accompanied by Robert Williams, Regional 
Forester for the Forest Service's Pacific Northwest Region, and 
Dr. Martin Raphael, scientist with the Forest Service's Pacific 
Northwest Research Station.
    I am pleased to appear with representatives of the U.S. 
Fish and Wildlife Service today. Many of the concerns your 
Committee raised deal with the listing, status as a threatened 
species, and recovery of the northern spotted owl. These 
issues, with their basis in the Endangered Species Act, are the 
special responsibilities of the Fish and Wildlife Service.
    That said, I hasten to add that the Forest Service works 
very closely with the Fish and Wildlife Service in managing the 
National Forests. This is especially so in the Pacific 
Northwest where advice by the Fish and Wildlife Service, in 
concert with several others, assists us in managing the 
National Forests and Bureau of Land Management forests under 
the 1994 Northwest Forest Plan. In addition, we are working 
closely with them to monitor both the compliance with, and the 
effectiveness of, the Northwest Forest Plan. And, through our 
Research arm, our several agencies are jointly studying the 
population, habitat, and trends of the northern spotted owl.
    How is the owl doing? We refer to the testimony here of our 
colleagues in the Fish and Wildlife Service: It's too soon to 
tell. The spotted owl is a long-lived species in a forest 
environment that changes slowly. Its populations may be 
affected by unique events and conditions from one year to the 
next that are unrelated to forest management. Thus the data 
from the first years of the Northwest Forest Plan are not now 
sufficient to give us confidence in any trend. We, along with 
many, are looking forward to the results of the analysis next 
year that will give us our first scientifically credible look 
at recent trends.
    The Northwest Forest Plan is not just a plan for the 
spotted owl. We tried writing plans just for the spotted owl, 
and they didn't work. In 1988 and again in 1992 the Forest 
Service issued guidelines for the management of habitat 
specifically for the spotted owl. Both times Federal courts 
ruled that our efforts were not adequate and enjoined timber 
sales in spotted owl habitat. The Bureau of Land Management 
(BLM) encountered (procedurally different but) similar 
difficulty in its attempt to harvest timber on the lands it 
manages in Oregon.
    New timber sale offerings on Federal forests in northern 
spotted owl country came to a virtual halt at the turn of the 
decade. Timber workers and timber dependent communities, 
already impacted by automation, alternate markets, and industry 
reorganization, reeled. Congressional efforts, such as Section 
318 of the 1990 Appropriations Bill, granted some short term 
relief. In spite of Section 318 and other efforts ``gridlock'' 
had arrived in the forests and rural communities across western 
Washington, western Oregon, and northwestern California.
    On April 2,1993, President Clinton convened the Forest 
Conference in Portland, Oregon to address the human and 
ecological needs served by Federal forests of the Pacific 
Northwest and northern California. Based on the Forest 
Conference, the President asked his Administration and Federal 
professionals to create a science-based forest management plan 
built on five goals: 1) adhere to the Nation's laws, 2) protect 
and enhance the environment, 3) provide a sustainable timber 
economy, 4) support the region's people and communities during 
economic transition, and 5) ensure that Federal agencies work 
together. An interagency interdisciplinary team of expert 
scientists assessed proposals for management of Federal forests 
in the range of the northern spotted owl. The team produced a 
report which was used as the basis to develop alternatives. A 
Record of Decision was issued April l994, which amended the 
planning documents of 19 National Forests and 7 Bureau of Land 
Management (BLM) Districts. The Record of Decision sets 
standards and guidelines, including land allocations for 
management of Federal lands within the range of the northern 
spotted owl.
    The Northwest Forest Plan is not just a plan for ensuring 
the viability of the northern spotted owl. It provides 
significant protections for streams, riparian areas, water 
quality, and fish. It provides a system of old-growth and late-
successional reserves with a multitude of benefits to species 
that depend on old forests. And, through the Northwest Economic 
Adjustment Initiative, the Plan also was a foundation of help 
to communities to cope with, and benefit from, economic 
transition.
    Two months after the Plan's release, the court injunctions 
were lifted, clearing the way for the agencies to offer new 
timber sales and other management actions for the first time in 
3 years. Since then, Federal agencies' decisions have continued 
to prevail in subsequent legal challenges, allowing the 
Northwest Forest Plan to move forward.
    The Plan applies only to Federal lands managed by the 
Forest Service and the BLM in the range of the northern spotted 
owl. The Plan does not apply to state, private, or tribal 
lands. While not issued as the final owl recovery plan required 
by the Endangered Species Act, the Plan does provide 
comprehensive management direction for the Federal lands that 
will enhance recovery efforts for the owl. It will also enhance 
the recovery efforts for other listed old-growth dependent 
species (such as the marbled murrelet), and for listed fish 
species by managing for healthy, sustainable forest and 
riparian ecosystems in the Northwest.
    What does it cost to manage for the northern spotted owl? 
This is an important question. We do not believe it possible to 
isolate those aspects of the Northwest Forest Plan (nor aspects 
of the Forest Plans which preceded it) which can be attributed 
to spotted owl management alone. Because the benefits which 
accrue to owl habitat and populations also accrue to many other 
species and forest conditions, one can not say what it costs to 
manage for the owl. Many of our management actions which 
benefit the owl are done for reasons independent of the owl--to 
comply with laws, to ensure a diversity of habitats, or to 
ensure the sustainability of our forests for multiple use.
    The Committee asked us to provide information on costs 
incurred by local governments and/or private entities to comply 
with Federal requirements related to the northern spotted owl. 
The Northwest Forest Plan imposes no requirements on local 
government or private entities which directly cause them to pay 
any costs. (The Fish and Wildlife Service has authority for 
programs for species recovery on non-Federal lands.)
    The Committee also posed the important question of the 
Federal, state, and local revenues foregone due to owl 
management requirements. This is another unanswerable question, 
and unanswerable for two reasons. First, the Northwest Forest 
Plan requires a number of management actions which benefit a 
number of species and environmental conditions--one can not say 
what portion is attributable to spotted owls. Second, the 
Northwest Plan enabled an increase in timber harvest activity 
from the period of ``gridlock'' preceding it. We all recognize 
that current timber sale levels are far below those of the mid- 
and late-1980's--but they are above those of the early-1990s. 
In this context, the Forest Plan has enabled revenues to be 
gathered which would have been foregone without the Northwest 
Forest Plan.
    Research on the spotted owl and monitoring have improved 
our understanding through studies on population trends 
(demographics) and habitat conditions. Trends in spotted owl 
populations are not easily attributed to any single factor but 
are a complex interaction between changes in habitat, climate, 
food sources, and abundance of competing species. Hypotheses 
regarding any of these various factors can only be tested with 
reliable, long-term demographic data.
    In 1994, Federal District Judge Dwyer upheld the Northwest 
Forest Plan approach but explicitly emphasized that it would 
hold up to legal scrutiny only if the Forest Service and BLM 
monitored the effects of the plan on key wildlife species. As a 
result, the Forest Service and BLM have maintained and 
supported a comprehensive monitoring plan for the spotted owl. 
Continuation of spotted owl research (in particular, modeling 
the relationship between habitat and populations) and 
monitoring is a critical component in understanding the 
complexities of ecosystems while we adapt management strategies 
to achieve desired forest management objectives.
    In 1997, an interagency Effectiveness Monitoring plan was 
developed. This monitoring plan emphasizes the need for 
continuing monitoring efforts underway. Owl demography studies 
are summarized annually for each of the individual study areas, 
but a combined range-wide analysis of all the data from the 
different study areas (a ``meta-analysis'') is only done every 
few years. The last such analysis was conducted in 1993. The 
next interagency scientific analysis is scheduled for December 
1998.
    Demographic monitoring studies have proved invaluable for 
determining trends of owl populations; habitat trends alone do 
not yet provide this information. The northern spotted owl 
populations appear to be declining in some areas, but may be 
stable in others. Much remains to be learned about why owls 
occupy specific sites, and how restoration and management can 
help return owls to sites or maintain their occupancy. Several 
studies have helped develop new forestry methods--selective 
thinning to speed the growth of tree girth, creation of cavity 
trees, etc.--that might speed restoring late-successional 
forests as spotted owl habitat.
    We have provided the Committee with a list of scientific 
publications on the spotted owl from 1994 to the present. This 
list of publications includes research done in cooperation with 
the Forest Service, other government agencies, universities, 
and cooperating research organizations.
    The Forest Service allocates funds within the structure 
outlined by the Congress's appropriations committees. Our 
funding structure does not include an ``owl management'' 
category. Because of the ecosystem management approach of the 
Northwest Forest Plan, we organize our work according to key 
components of ecosystem management, such as watershed analysis 
and riparian restoration. As such, it is not possible to 
provide an exhaustive set of costs related to a single species, 
such as the northern spotted owl.
    Forest management for the multiple purposes prescribed in 
the Northwest Forest Plan requires careful thought before 
acting. The Plan calls for several types of analysis which are 
closer to the ground than the large scale Plan. Between 1995 
and 1997, we completed 283 watershed analyses representing 55 
percent of Northwest Forest Plan watersheds. All initial 
analyses will be complete in three years. These analyses set 
the stage for a variety of projects including watershed 
restoration, timber sales, recreation projects, and management 
of roads and trails. Watershed restoration activities include 
repairing or obliterating roads, stabilizing upland areas and 
restoring stream channels and banks. Watershed analyses 
currently cost between $90,000 and $100,000 each.
    Late Successional Reserves total nearly 7.5 million acres 
within the Northwest Forest Plan area; Reserves help provide a 
distribution, quantity, and quality of old-growth forest 
habitat sufficient to avoid the extinction of associated flora 
and fauna such as the northern spotted owl. Assessments for 75 
percent of the acres of Late Successional Reserves will be 
finished by the summer of 1998. There are ten Adaptive 
Management Areas identified in the Northwest Forest Plan; they 
have over 300 research and monitoring projects underway. Eight 
of the Adaptive Management Areas have completed plans.
    This completes my testimony. I would be happy to answer any 
questions you may have or to provide you with any available 
information on this topic.
[GRAPHIC] [TIFF OMITTED] T7909.001

[GRAPHIC] [TIFF OMITTED] T7909.002

[GRAPHIC] [TIFF OMITTED] T7909.003

[GRAPHIC] [TIFF OMITTED] T7909.004

[GRAPHIC] [TIFF OMITTED] T7909.005

[GRAPHIC] [TIFF OMITTED] T7909.006

[GRAPHIC] [TIFF OMITTED] T7909.007

[GRAPHIC] [TIFF OMITTED] T7909.008

[GRAPHIC] [TIFF OMITTED] T7909.009

[GRAPHIC] [TIFF OMITTED] T7909.010

[GRAPHIC] [TIFF OMITTED] T7909.011

[GRAPHIC] [TIFF OMITTED] T7909.012

[GRAPHIC] [TIFF OMITTED] T7909.013

[GRAPHIC] [TIFF OMITTED] T7909.014

[GRAPHIC] [TIFF OMITTED] T7909.015

[GRAPHIC] [TIFF OMITTED] T7909.016

[GRAPHIC] [TIFF OMITTED] T7909.017

                                  <all>
</pre></body></html>
